<html>
<title> - BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: REVITALIZING AMERICAN COMMUNITIES THROUGH THE BROWNFIELDS PROGRAM</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





   BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: REVITALIZING 
          AMERICAN COMMUNITIES THROUGH THE BROWNFIELDS PROGRAM

=======================================================================

                                (115-7)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 28, 2017

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure



[GRAPHIC(S) NOT AVAIALBLE IN TIFFF FORMAT]




         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-789 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          























             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
FRANK A. LoBIONDO, New Jersey        JERROLD NADLER, New York
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
DUNCAN HUNTER, California            ELIJAH E. CUMMINGS, Maryland
ERIC A. ``RICK'' CRAWFORD, Arkansas  RICK LARSEN, Washington
LOU BARLETTA, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
BLAKE FARENTHOLD, Texas              GRACE F. NAPOLITANO, California
BOB GIBBS, Ohio                      DANIEL LIPINSKI, Illinois
DANIEL WEBSTER, Florida              STEVE COHEN, Tennessee
JEFF DENHAM, California              ALBIO SIRES, New Jersey
THOMAS MASSIE, Kentucky              JOHN GARAMENDI, California
MARK MEADOWS, North Carolina         HENRY C. ``HANK'' JOHNSON, Jr., 
SCOTT PERRY, Pennsylvania            Georgia
RODNEY DAVIS, Illinois               ANDRE CARSON, Indiana
MARK SANFORD, South Carolina         RICHARD M. NOLAN, Minnesota
ROB WOODALL, Georgia                 DINA TITUS, Nevada
TODD ROKITA, Indiana                 SEAN PATRICK MALONEY, New York
JOHN KATKO, New York                 ELIZABETH H. ESTY, Connecticut, 
BRIAN BABIN, Texas                   Vice Ranking Member
GARRET GRAVES, Louisiana             LOIS FRANKEL, Florida
BARBARA COMSTOCK, Virginia           CHERI BUSTOS, Illinois
DAVID ROUZER, North Carolina         JARED HUFFMAN, California
MIKE BOST, Illinois                  JULIA BROWNLEY, California
RANDY K. WEBER, Sr., Texas           FREDERICA S. WILSON, Florida
DOUG LaMALFA, California             DONALD M. PAYNE, Jr., New Jersey
BRUCE WESTERMAN, Arkansas            ALAN S. LOWENTHAL, California
LLOYD SMUCKER, Pennsylvania          BRENDA L. LAWRENCE, Michigan
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
JOHN J. FASO, New York
A. DREW FERGUSON IV, Georgia
BRIAN J. MAST, Florida
JASON LEWIS, Minnesota

                                  (ii)

  

            Subcommittee on Water Resources and Environment

                   GARRET GRAVES, Louisiana, Chairman

ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
BOB GIBBS, Ohio                      LOIS FRANKEL, Florida
DANIEL WEBSTER, Florida              FREDERICA S. WILSON, Florida
THOMAS MASSIE, Kentucky              JARED HUFFMAN, California
RODNEY DAVIS, Illinois               ALAN S. LOWENTHAL, California
MARK SANFORD, South Carolina         EDDIE BERNICE JOHNSON, Texas
ROB WOODALL, Georgia                 JOHN GARAMENDI, California
TODD ROKITA, Indiana                 DINA TITUS, Nevada
JOHN KATKO, New York                 SEAN PATRICK MALONEY, New York
BRIAN BABIN, Texas                   ELIZABETH H. ESTY, Connecticut
DAVID ROUZER, North Carolina         CHERI BUSTOS, ILLINOIS
MIKE BOST, Illinois                  JULIA BROWNLEY, California
RANDY K. WEBER, Sr., Texas           BRENDA S. LAWRENCE, Michigan
DOUG LaMALFA, California             PETER A. DeFAZIO, Oregon (Ex 
A. DREW FERGUSON IV, Georgia         Officio)
BRIAN J. MAST, Florida, Vice Chair
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY

Hon. J. Christian Bollwage, Mayor, City of Elizabeth, New Jersey, 
  on behalf of the U.S. Conference of Mayors.....................     7
Hon. Deborah Robertson, Mayor, City of Rialto, California........     7
Hon. Matt Zone, Councilmember, City of Cleveland, Ohio, on behalf 
  of the National League of Cities...............................     7
John E. Dailey, Commissioner, Leon County, Florida, on behalf of 
  the National Association of Counties...........................     7
Amanda W. LeFevre, Outreach and Educational Coordinator, Kentucky 
  Brownfield Redevelopment Program, on behalf of the Association 
  of State and Territorial Solid Waste Management Officials......     7
Jonathan Philips, Managing Director, Anka Funds..................     7

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hon. J. Christian Bollwage.......................................    48
Hon. Deborah Robertson...........................................    58
Hon. Matt Zone...................................................    63
John E. Dailey...................................................    70
Amanda W. LeFevre................................................    83
Jonathan Philips.................................................    93

                       SUBMISSIONS FOR THE RECORD

Hon. Grace F. Napolitano, a Representative in Congress from the 
  State of California, submission of the following:

    Letter of March 10, 2017, from Hon. Peter A. DeFazio, a 
      Representative in Congress from the State of Oregon, et 
      al., to Hon. Scott Pruitt, Administrator, U.S. 
      Environmental Protection Agency............................     3
    Report, ``CERCLA Lender Liability Exemption: Updated 
      Questions and Answers,'' July 2007, published by the U.S. 
      Environmental Protection Agency............................   118
    Report, ``CERCLA Liability and Local Government Acquisitions 
      and Other Activities,'' March 2011, published by the U.S. 
      Environmental Protection Agency............................   125
    Memorandum on the Revised Enforcement Guidance Regarding the 
      Treatment of Tenants Under the CERCLA Bona Fide Prospective 
      Purchase Provision, from Cynthia Giles, Assistant 
      Administrator, Office of Enforcement and Compliance 
      Assistance, and Mathy Stanislaus, Assistant Administrator, 
      Office of Solid Waste and Emergency Response, U.S. 
      Environmental Protection Agency, to Regional 
      Administrators, Regions I-X................................   137
    ``FY17 Guidelines for Brownfields Assessment Grants,'' RFP 
      No.: EPA-OLEM-OBLR-16-08, Catalog of Federal Domestic 
      Assistance (CFDA) No.: 66.818, published by the U.S. 
      Environmental Protection Agency \1\
Hon. J. Christian Bollwage, Mayor, City of Elizabeth, New Jersey, 
  on behalf of the U.S. Conference of Mayors, submission of 
  letter of March 28, 2017, from Tom Cochran, CEO and Executive 
  Director, U.S. Conference of Mayors, et al., to Hon. Greg 
  Walden, Chairman, Committee on Energy and Commerce, et al......     9

----------
\1\ The 74-page ``FY17 Guidelines for Brownfields Assessment Grants'' 
published by the U.S. Environmental Protection Agency can be found 
online at https://www.epa.gov/sites/production/files/2016-10/documents/
epa-olem-oblr-16-08.pdf.
Amanda W. LeFevre, Outreach and Educational Coordinator, Kentucky 
  Brownfield Redevelopment Program, on behalf of the Association 
  of State and Territorial Solid Waste Management Officials, 
  submission of ASTSWMO position paper ``128(a) `Brownfields' 
  Grant Funding''................................................   113

                        ADDITIONS TO THE RECORD

Letter of March 28, 2017, from Kevin McCray, CAE, Chief Executive 
  Officer, National Ground Water Association, to Hon. Garret 
  Graves, Chairman, and Hon. Grace F. Napolitano, Ranking Member, 
  Subcommittee on Water Resources and Environment................   142
Letter of March 28, 2017, from Leslie Wollack, Executive 
  Director, National Association of Regional Councils, to Hon. 
  Bill Shuster, Chairman, Committee on Transportation and 
  Infrastructure, et al..........................................   144



[GRAPHIC(S) NOT AVAIALBLE IN TIFFF FORMAT]

 
   BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: REVITALIZING 
          AMERICAN COMMUNITIES THROUGH THE BROWNFIELDS PROGRAM

                              ----------                              


                        TUESDAY, MARCH 28, 2017

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2167 Rayburn House Office Building, Hon. Garret Graves 
(Chairman of the subcommittee) presiding.
    Mr. Graves of Louisiana. The subcommittee will come to 
order.
    Good morning, and thank you for being here. I would like to 
welcome all of you to our hearing today on ``Building a 21st-
Century Infrastructure for America: Revitalizing American 
Communities through the Brownfields Program.''
    Brownfields are properties where contamination was 
suspected. These sites include inactive factories, gas 
stations, salvage yards, and many other previously used 
properties where environmental liability and cleanup standards 
prevented their continued use and redevelopment.
    Fear of environmental liabilities of these sites caused 
developers to look outside cities to previously undeveloped 
properties for new opportunities. This left many sites 
untouched, driving down property values, contributing to 
blight, and reducing tax revenues to cities.
    In 2001, Congress created specific authority for dealing 
with brownfields, the Brownfields Revitalization and 
Environmental Restoration Act of 2001. It amended the Superfund 
law and authorized funding through EPA to provide grants for 
assessment and cleanup; provided targeted relief for property 
owners; and increased Federal support for State and tribal 
programs that were already underway.
    The authorization for brownfields grants, under the 
Brownfields Revitalization and Environmental Restoration Act, 
expired at the end of 2006, though Congress has continued to 
appropriate funds for the Brownfields Program. As of February 
this year, EPA and State and tribal programs have assessed over 
25,000 properties, completed over 100,000 cleanups, and made 
more than 1 million acres of property ready for reuse.
    On average, between $16 and $17 is leveraged for every $1 
in Federal funds that is appropriated for the Brownfields 
Program, and 120,000 jobs have been created or maintained as a 
result of the program.
    Benefits of having these sites redeveloped have increased 
property values between 5 and 15 percent, and measurable 
environmental benefits, such as fewer vehicle miles traveled 
and improved stormwater runoff, have also resulted.
    In our home State of Louisiana, our Department of 
Environmental Quality has passed through approximately $1.8 
million to local governments and not-for-profits for cleanup of 
brownfields sites. These investments have preserved and created 
1,400 jobs and leveraged approximately $120 million in funding, 
significantly surpassing the average that I cited earlier of 
$16 to $17-to-$1. In this case you are exceeding $65-to-$1.
    I want to thank all of our witnesses for being here this 
morning and taking time out of their schedule.
    And I want to recognize our ranking member, Mrs. 
Napolitano, for an opening statement.
    Mrs. Napolitano. Thank you very much, Mr. Chairman. Thank 
you very much for holding today's hearing on the status of the 
Environmental Protection Agency's Brownfields Program.
    First, I would like to welcome all of our witnesses to the 
hearing and look forward to your testimony, and to our dialogue 
on this highly successful program.
    I would also like to formally welcome Mayor Deborah 
Robertson from the city of Rialto, California, to the 
subcommittee. Rialto has benefitted in the past from the 
Brownfields Program. Mrs. Norma Torres and Congressman Pete 
Aguilar represent Rialto, and I look forward to working with 
them to further brownfield redevelopment in the region.
    This is the second time this committee has turned to this 
subject in as many Congresses. Since we met last on this 
subject, the program has continued to operate as it has since 
its creation in 2000, efficiently and successfully.
    In fact, the data provided by EPA shows that since its 
inception the Brownfields Program has leveraged more than 
122,800 jobs and over $23.6 billion in cleanup and 
redevelopment funding.
    Nationwide, communities have assessed more than 26,400 
properties, cleaned up more than 1,500 sites, and have made 
66,800 acres ready for reuse, back on the rolls.
    For every $1 of brownfield funding, more than $16 of other 
public and private dollars are leveraged, and more than eight 
jobs are leveraged for every $100,000 of EPA brownfields funds 
expended. It is undeniable that this program is working as it 
should, and that communities across the Nation are benefitting 
from the investment of the Federal dollars in the program while 
effectively turning brownfields into income producers.
    I am troubled, however, by the recent press reports that 
the new administration plans to eliminate nearly 40 separate 
programs at EPA, including the Brownfields Program. In fact, I, 
along with Ranking Member DeFazio, Ranking Member Esty, as well 
as Ranking Members Pallone and Tonko from the Energy and 
Commerce Committee, sent a letter to the EPA Administrator on 
March 10, 2017, on this very subject requesting answers.
    Mr. Chair, I would like to ask for unanimous consent to 
enter this into the record.
    Mr. Graves of Louisiana. Without objection.

    [The letter follows:]


[GRAPHIC(S) NOT AVAIALBLE IN TIFFF FORMAT]



    
    Mrs. Napolitano. In this letter, we sought the 
clarification as to whether or not the administration will 
support or eliminate this program. I would like to note for the 
record that as of this date of this hearing we have received no 
response.
    To me the administration's reluctance to publicly support 
the Brownfields Program is puzzling, especially since by all 
accounts, this program has been extremely, very, very, very 
successful. Every witness that testified at the hearing in the 
last Congress spoke very supportively of the program. In fact, 
one witness called it ``right law for the right reason.''
    However, this program's successes have been hindered by the 
lack of funds. By EPA's own estimates, over the past 5 years, 
funding deficiencies have cost 1,676 viable proposals to go 
underfunded. These sites are not only sitting idle and 
unproductive, but we are missing out on the return investment 
of these sites.
    In fact, at these sites proposed to receive funding, it is 
estimated those grants would have leveraged approximately 
54,680 jobs and over $10.3 billion in public and private 
financing. It begs the question: why are we not investing more 
in redevelopment of brownfield spaces?
    If this is the success rate of an underfunded program, 
imagine the potential economic impact and potential for job 
creation that would come from fully funding the program.
    Mr. Chairman, this is a program that has received 
bipartisan support in the past, and I hope it will continue to 
receive bipartisan support in the future, and we support an 
increase for the EPA for this program. The program's success 
speaks for itself.
    Again, I welcome our witnesses, and thank you, Mr. 
Chairman, for holding this important meeting.
    And I yield back the balance of my time.
    Mr. Graves of Louisiana. Thank you, Mrs. Napolitano.
    And I would actually like to associate myself with the end 
of your remarks in regard to the importance of the program's 
additional funding. So thank you.
    Before I begin introducing witnesses this morning, I just 
need to dispense with a few unanimous--oh, I am sorry. I yield 
to the ranking member of the full committee, Mr. DeFazio.
    Mr. DeFazio. Thanks, Mr. Chairman.
    I am here because I think this is extraordinarily important 
and should be a bipartisan effort in reauthorizing the 
brownfields law, and our colleague, Ms. Esty, will introduce a 
bill today which I support to do that.
    I was here when the original Brownfields bill was approved. 
It was actually done by a voice vote in the House, and UC 
[unanimous consent] in the Senate, and signed by President 
George W. Bush. So this certainly has a bipartisan legacy.
    It has been tremendously successful, with one exception, 
and that exception has already been mentioned by my colleague, 
the ranking member, Mrs. Napolitano, which is the lack of 
adequate funding.
    I'll just give one quick example of how useful these funds 
have been. My largest city, Eugene, Oregon, got a $680,000 site 
assessment grant back in 2013. They assessed 15 specific 
properties, and development was planned and redevelopment for 
all those properties.
    And, by the way, this can be obtained locally. The famous 
Ninkasi Brewing Company which makes Ninkasi beer now marketed 
in the Washington, DC, area--I am not being Kellyanne Conway 
here. I am just promoting something that----
    [Laughter.]
    Mr. DeFazio. They are on a former Eugene brownfield, and 
they have gone from 2 employees to 100.
    So, you know, there is tremendous leverage of private 
investment in recapturing these assets, many of which are urban 
areas where the property can be very valuable.
    Initially, and that was quite some time ago, 15 years ago, 
we were appropriating $250 million annually. Obviously, there 
has been inflation since then, but now we have been closer to 
$160 million annually, and the current administration is 
perhaps proposing further cuts or elimination of the program.
    Mrs. Napolitano mentioned the EPA's estimate that over the 
past 5 years they have only been able to fund one in four of 
the applications, and that means we have foregone tens of 
thousands of jobs and billions, billions of dollars in 
leveraged private investment.
    Now, our former colleague, Mr. Mulvaney, has suggested that 
the administration will only fund programs that work. Well, I 
would say that if they want to leverage private investment and 
they are looking for a program that works, they should be 
proposing an increase in funding for this program rather than a 
decrease.
    I look forward to the hearing, and I look forward hopefully 
to bipartisan efforts to reauthorize and enhance this program.
    Thank you, Mr. Chairman.
    Mr. Graves of Louisiana. Thank you, Mr. DeFazio.
    Would you like to give the website as well for the beer?
    Mr. DeFazio. I will post it upstairs.
    Mr. Graves of Louisiana. I was talking about for the beer. 
All right.
    Again, before I begin introducing witnesses, I need to 
dispense with a few unanimous consent requests.
    I ask unanimous consent that the record remain open for 30 
days after this hearing in order to accept written testimony 
for the hearing record.
    Without objection, so ordered.
    I ask unanimous consent that the record of today's hearing 
remain open until such time as our witnesses have provided 
answers to any questions that may be submitted to them in 
writing.
    Without objection, it is so ordered.
    Thank you.
    I would now like to recognize our first witness, the 
Honorable Christian Bollwage, the mayor of Elizabeth, New 
Jersey.
    Mr. Mayor, you are recognized for 5 minutes.

    TESTIMONY OF HON. J. CHRISTIAN BOLLWAGE, MAYOR, CITY OF 
  ELIZABETH, NEW JERSEY, ON BEHALF OF THE U.S. CONFERENCE OF 
    MAYORS; HON. DEBORAH ROBERTSON, MAYOR, CITY OF RIALTO, 
 CALIFORNIA; HON. MATT ZONE, COUNCILMEMBER, CITY OF CLEVELAND, 
   OHIO, ON BEHALF OF THE NATIONAL LEAGUE OF CITIES; JOHN E. 
 DAILEY, COMMISSIONER, LEON COUNTY, FLORIDA, ON BEHALF OF THE 
 NATIONAL ASSOCIATION OF COUNTIES; AMANDA W. LEFEVRE, OUTREACH 
AND EDUCATIONAL COORDINATOR, KENTUCKY BROWNFIELD REDEVELOPMENT 
PROGRAM, ON BEHALF OF THE ASSOCIATION OF STATE AND TERRITORIAL 
    SOLID WASTE MANAGEMENT OFFICIALS; AND JONATHAN PHILIPS, 
                 MANAGING DIRECTOR, ANKA FUNDS

    Mr. Bollwage. Thank you very much, Mr. Chairman.
    Mr. Graves of Louisiana. Is your microphone on?
    Mr. Bollwage. I lost 5 seconds. No.
    Thank you very much, Mr. Chairman, Ranking Member, and 
Congressman DeFazio.
    I was there and testifying back in 2001 and 2000 and 1999, 
and was pleased to be there in 2002 in Conshohocken, 
Pennsylvania, when the President signed that bill.
    So I have been the mayor since 1993, and I am a trustee of 
the U.S. Conference of Mayors and the chair of the Brownfields 
Task Force of the Conference of Mayors. I am pleased to be here 
today to discuss the role that brownfields can play in our 
21st-century infrastructure.
    For many people, brownfields are just a neighborhood 
eyesore of the former industrial site that may exist, but for 
mayors, as all of you know, they represent unrealized potential 
for tax revenue, economic development, and jobs.
    We see the redevelopment of brownfields as a chance to 
bring back to a community, to revitalize neighborhoods, and 
reuse existing infrastructure.
    The brownfields law had a very positive effect and not only 
on our economy, but the Nation's economy. Some of the 
statistics already mentioned: 26,000 brownfield sites, 5,700 
properties, 66,000 acres, over 123,000 jobs, $23 billion 
leveraged, and the $1 EPA investment generates $16 in other 
investments.
    And the last time I was here before this committee, I 
talked about the Jersey Gardens Mall, one of our most 
successful Brownfields redevelopment sites. A former landfill 
on a 200-acre site now has more than 200 stores, movie theater, 
4 hotels, 1,700 construction jobs, 4,000 permanent jobs.
    Another successful redevelopment project was our 
Elizabethport HOPE VI Project. This former industrial spot was 
historically made up of businesses that focused upon 
complementing the shipping industry in Port Elizabeth. However, 
as our city expanded, evolved, and changed, so did the vision 
and potential of the land use.
    So over a new $15 million townhome redevelopment is now 
made up of 55 market rate luxury housing units with market 
front views.
    A federally funded HOPE VI project in the late 1990s and 
early 2000s assisted in the removal and replacement of public 
housing complexes into townhouses. Individuals previously 
residing in these old, dilapidated facilities had the 
opportunity to become homeowners in new residential 
neighborhoods because of brownfields redevelopment.
    And as I mentioned, the Brownfields Program has had a 
proven track record, leveraging private-sector investment, 
creating jobs, and protecting the environment. There is much 
more work that can be done.
    As all of you said, due to limited funding, the EPA has had 
to turn away a lot of highly qualified applicants. The EPA 
estimates that for the past 5 years over 1,600 requests for 
viable projects were not awarded money. EPA estimates that if 
those applicants were funded, an additional 54,000 jobs would 
have been created with a $10.3 billion of leveraged funding.
    I urge Congress to not only reauthorize the brownfields law 
with some minor changes to make it more effective, but to 
increase the appropriations. If you are looking to revitalize 
infrastructure as well and creating jobs, this is one of the 
best programs to do that.
    And on behalf of my colleagues at NACo, NLC and the USCM, 
we have submitted a letter of organizations that we would like 
to officially submit for the record, and in this letter we urge 
Congress to pass a new brownfields law with some changes.
    Mr. Graves of Louisiana. Without objection.

    [The letter follows:]


[GRAPHIC(S) NOT AVAIALBLE IN TIFFF FORMAT]


    

    
    Mr. Bollwage. I want to mention that the challenge that the 
communities now face is that many easy brownfield sites have 
been developed, and what now remains are the more difficult 
sites, the sites that may be more contaminated or are located 
with tougher redevelopment markets.
    So our recommendations include increasing the grant cleanup 
amounts from $200,000 to make it more attractive to a 
developer. We would like to see an opportunity of $1 million 
and possibly in special circumstances up to $2 million.
    Second, creation of a multipurpose grant. The way the 
program works now is that a city applies for a grant, 
identifies a property where it will be spent. This program, 
this problem is not flexible. The development may change. The 
developer may need a new site. The money is then targeted for 
the one site. You have got to restart the process, and it just 
takes too long, maybe up to 6 more months.
    Redevelopment of ``mothball'' sites, a very big problem in 
some communities where owners are just not willing to sell or 
give up their land, and one such tool would be to give cities 
additional liability protections if they want to acquire 
property through voluntary sales.
    Some recommendations include allowing reasonable 
administrative costs, clarifying eligibility of publicly owned 
land and sites acquired before 2002, encouraging brownfield 
cleanups by Good Samaritans.
    I would like to thank the Brownfields Task Force and this 
subcommittee for having me testify here today. I thank you, Mr. 
Chairman and Ranking Member, and all the members of the 
committee for making brownfields an important tool for 
redevelopment.
    Mr. Graves of Louisiana. Thank you. I appreciate your 
testimony.
    I want to turn to our second witness, the Honorable Deborah 
Robertson, the mayor of Rialto, California.
    Mayor Robertson, you are recognized for 5 minutes.
    Ms. Robertson. Thank you.
    Councilman Zone. Good morning, everyone. Good morning 
Chairman Garret Graves and Ranking Member Grace Napolitano, and 
members of the subcommittee. Thank you for giving me the 
opportunity to testify and talk about how we can revitalize the 
American communities through the Brownfields Program.
    It is a privilege and an honor for me to participate in 
this important hearing. I am here today as the mayor of the 
city of Rialto, and I share strong support, my community 
support, for the U.S. Environmental Protection Agency's 
Brownfields Program.
    For those of you who are not familiar with Rialto, Rialto 
is in the eastern part of California's San Bernardino County, 
east of Los Angeles. We are a vibrant, ethnically diverse 
working-class community of over 100,000.
    The interesting part about Rialto though is that we are 
only 4 miles wide and 8 miles long, and yet still we have quite 
a bit of activity going on in our community. It is in the 
Inland Empire, and we are an environmental justice community.
    Like many older communities, we grew up along the 
railroads. It has a long and colorful history that evolved from 
an agricultural base into a more urban transportation 
industrial economy.
    Rialto is home to a number of major distribution centers, 
including the Staples Center, which serves the entire west 
coast of the United States, Toys R Us, Under Armour, Niagara, 
Medline, Amazon, and Target for the northern region of our 
city, and also the western region.
    We also are home to the largest fireworks company, Pyro 
Spectaculars, which is headquarters in Rialto and listed as the 
world corporate office.
    The city hosts the Union Pacific's East Colton 
classification yard, Kinder Morgan with the big regional 
petroleum and fuel storage farm, and we also have major 
trucking companies, such as Old Dominion, Yellow Freight, UPS, 
and FedEx.
    In addition to that, we have a major defense contractor, 
which is Martinez and Turek, who provides construction of 
launching pads for the NASA Program, and also we have a major 
confectioner manufacturer.
    We are in the middle of a confluence between three major 
freeways or highways, Interstate 10, the 210, and Interstate 
15, which helps us in conveying a lot of goods movement from 
the ports of Long Beach and Los Angeles to the rest of the 
Nation.
    And we have over 95 companies that handle hazardous waste. 
In the State of California, the Water Resources Control Board 
environmental mapping program, better known as GeoTracker, 
indicated a significant number of underground storage tanks 
that are leaking, and EPA, moreover, manages and operates a 
Superfund site in the northern part of the city.
    So while my hometown is a wonderful place to live, work and 
play, it also confronts many economic and environmental 
challenges that can best be addressed through the assistance 
and partnership of local, State and Federal Government.
    As an elected official and a public servant for more than 
30 years, not just as a local elected official, but also as an 
official for the Department of Transportation, better known as 
Caltrans, we view these programs as vital to assisting our 
community in cleanup, restoring, and reusing the 
environmentally compromised properties that exist within our 
communities. The partnership is absolutely critical to the 
economic revitalization and job growth.
    I know in my testimony I submitted, I talked about a number 
of sites that are currently underway and the fact that in 
Rialto we have identified over 25 remaining sites that are left 
to be cleaned up.
    But I would like to share one other additional thing. We 
have an area as a local agency where we inherited or we took 
over a general aviation airport many years ago. That airport 
required us to seek Federal legislation to relocate the 
aviation activity so that we could then take that property, 
over 953 acres, and be able to redevelop it so that it can 
bring jobs.
    For me, I see the program and the Brownfields Program as 
the only program probably that helps our communities, all of 
them, in being able to restore the land and put it into a good 
economic use, such as bringing about not only the revenue for 
the community, the revitalization, and the jobs, but also being 
able to deal with the blight that goes on in our community.
    I would encourage you, you know, to really look at this 
program and support it, but also, as my colleague says, to 
increase it because we have wo many sites that still need to be 
addressed, and we will never get ahead of the eight ball if we 
are only identifying a few at a time.
    In Rialto, we have been blessed to be a part of something 
similar, Chairman, that you have in your district, and that is 
to be designated as a megaregion, and so we are looking at how, 
similar to your transit, do we take that and tie the nexus 
between brownfield cleanup and data analytics, logistics, 
surveillance and at the same time innovation, things that will 
bring more jobs into the community of Rialto and in southern 
California.
    Thank you.
    Mr. Graves of Louisiana. Thank you, Madam Mayor.
    Next we have the Honorable Matt Zone, who is a 
councilmember from Cleveland, Ohio.
    I appreciate you being here, Councilmember Zone. You are 
recognized for 5 minutes.
    Mr. Zone. Thank you.
    Good morning, Chairman Graves and Ranking Member Napolitano 
and members of the committee.
    I am Matt Zone. I am a councilmember from Cleveland, Ohio, 
and president of the National League of Cities. I am here today 
on behalf of the National League of Cities, which is the oldest 
and largest organization representing 19,000 cities and towns 
of all sizes across America.
    I appreciate this opportunity to share our perspective on 
the importance of the U.S. Environmental Protection Agency's 
Brownfields Program, and discuss how the program contributes to 
the revitalization of communities, and boosts the localand 
national economy.
    Mr. Chairman, as an older industrial city, Cleveland has 
had a long manufacturing legacy. Today that legacy has left us 
with many abandoned factories, vacant commercial spaces, and 
polluted industrial sites.
    These brownfield properties pose environmental and health 
risks, but redeveloping them has helped to bring new life to 
Cleveland and to create new opportunities for our residents.
    In 2005, the city partnered with the EPA and the State of 
Ohio, local businesses, and other entities to create the Land 
Bank Program which is targeting former industrial and 
commercial properties for rehabilitation. Known as the 
Industrial-Commercial Land Bank, the program's mission is 
simple: to invest in redevelopment, redeveloping contaminated 
properties for productive use.
    And to date, Mr. Chairman, our Industrial-Commercial Land 
Bank has redeveloped 13 sites. We have cleaned up 137 acres. We 
have invested $40 million in Cleveland, and we have created or 
retained 2,800 jobs.
    In my written testimony, members of the committee, I 
highlight three projects that our city has undertaken through 
our land bank, but right now I want to talk just about one in 
particular, the Trinity Building.
    It has been one of the most challenging sites, and I think 
it illustrates why the Federal support for brownfields 
redevelopment is so critical
    The Trinity Building is a small, 6-acre site, but it posed 
huge challenges for our city. Today the site is positioned to 
be the future home of our city kennel, but it took a difficult 
road and a strong Federal-local partnership to get there.
    The Trinity Building was originally a factory that produced 
aluminum products and employed over 500 Clevelanders, but in 
1980 the factory closed, and by the mid-1990s, the abandoned 
building had become a blight on our community and a public 
health risk for our local residents.
    So in 2004, the city took ownership of the property, and we 
allocated $2.9 million for remediation. Three years later, the 
city discovered that the site was contaminated with dangerous 
PCBs. With such a significant public health risk now in play, 
the city requested that the EPA investigate the site and assist 
with an immediate response.
    After conducting its response, EPA announced that the city 
itself, and this is important; the EPA announced that the city 
itself could potentially be liable for the cleanup. If it had 
not been the worst-case scenario, that huge cost of treating 
PCB contamination would have put our Land Bank Program in 
jeopardy.
    Fortunately, the city was able to work with the EPA to 
prove that the pollution was not the city's fault, but the 
process took years of litigation and delays, and created 
substantial uncertainty in the remediation project which 
ultimately increased our cost to the city.
    You know, when you look at the return on that initial 
investment, Mr. Chairman, as a local government official, I can 
attest to the fact that the brownfield redevelopment is a 
powerful economic tool. Turning polluted properties back into 
productive real estate helps us create jobs in distressed 
communities, while simultaneously improving public health and 
safety.
    But brownfields redevelopment involves a lot of risk for 
cities and for developers. You know, projects like the Trinity 
Building needed public support to compete with newer 
development sites and overcome the challenges of working with 
contaminated real estate. Our brownfield challenges and unique 
opportunities really allowed us to support our cities and towns 
as we worked to really revitalize our main streets in downtowns 
across economically challenged neighborhoods in America.
    So NLC urges Congress to reauthorize the Brownfields 
Program and make some key improvements. Our first priority 
would be we would urge Congress to increase or maintain the 
current overall authorization level for the program.
    My colleagues will discuss some of the other shared 
priorities like the importance of multipurpose grants and 
raising the overall cap on the cleanup grants amounts, but I 
want to take a minute to just talk about the issue of municipal 
liability.
    You know, Cleveland's experience with the Trinity Building 
highlights one of the greatest challenges that local 
governments face in redeveloping brownfields, and that is the 
dangerous liability concerns that can arise when cities acquire 
contaminated property.
    For most brownfield sites, the only chance of redevelopment 
is through public acquisition. But just like with the Trinity 
Building, hidden liabilities can arise after cities acquire 
property, even if the city had no role in creating those 
contaminations.
    The result is that many local governments are unable to 
acquire property because of the risk of incurring major 
liability, and Congress can fix this problem by clarifying and 
expanding the liability protections for public entities that 
acquire contaminated brownfield sites, especially where that 
public entity was not responsible for creating that 
contamination.
    In closing, Mr. Chairman, in 2009, I had the opportunity to 
testify on the reauthorization of this program, and I am 
grateful that the city of Cleveland has the experience and the 
resources to start redeveloping many of our brownfields in our 
neighborhood.
    I am joined today by David Ebersole, the director of our 
Brownfields Program, and our story in Cleveland is no different 
than any other industrial American city, and our residents are 
feeling the benefits of turning polluted sites back into 
productive places.
    But even though there is so much progress that has been 
made, the work is nowhere near finished.
    Mr. Graves of Louisiana. Would you please wrap up?
    Mr. Zone. I want to thank you for this opportunity, Mr. 
Chairman, and I look forward to your questions in a little bit.
    Thank you.
    Mr. Graves of Louisiana. Thank you. I appreciate it, 
Councilmember.
    Our next witness is Commissioner John Dailey from Leon 
County, Florida.
    Commissioner Dailey, you are recognized.
    Mr. Dailey. Chairman Graves, Ranking Member Napolitano, and 
members of the subcommittee, it is my honor and privilege to be 
here with you today.
    My name is John Dailey, and I serve as the chairman of the 
Leon County Commission in Florida, and today I am representing 
the National Association of Counties.
    Leon County is located in northern Florida, and is home to 
our State capital of Tallahassee. We serve a population of 
285,000.
    As a county commissioner, I have seen firsthand the 
positive effects that brownfields redevelopment has had on my 
community. Today's hearing is timely since counties play such a 
significant role in both land-use planning and economic 
development.
    Many counties oversee brownfields redevelopment projects 
directly because these projects are a natural extension of our 
land-use authorities. These authorities include developing 
comprehensive land-use plans, setting zoning ordinances, 
overseeing environmental monitoring and enforcement, creating 
viable economic development districts, conducting public health 
evaluations, and running risk assessments at brownfield sites.
    These many responsibilities allow us to see the big picture 
for our communities and direct our focus on areas that would 
most benefit from a brownfields redevelopment project.
    In my county, we had a former 450-acre brownfield site that 
included a historic rail depot, chemical warehouses, and other 
industrial sites, and about 6 years ago, we completely 
transformed the area. And it is vibrant. It now includes shops, 
restaurants, pubs, hotels, private housing, and a small 
business incubator.
    As a result, the corridor has brought 200 new jobs, 
increased the tax value of the site by $130 million, and 
attracted nearly 3,000 new residents. Since additional 
improvements are planned, we only expect these numbers to grow.
    We are also proud of our 24-acre Cascades Park. This area 
was formerly a manufactured gas plant and municipal landfill 
located just blocks from the Florida capital. We have 
completely transformed this area into a nationally award 
winning stormwater facility that just happens to also be a 
beautiful central park in downtown Tallahassee.
    The successes that we have experienced are not atypical. 
Counties across the U.S., large and small, are undertaking 
brownfields projects in their local communities. While we have 
made tremendous strides, it is estimated that there are over 
400,000 brownfield sites that have yet to be addressed 
nationally.
    As you consider revisions to the Federal brownfields 
policies, we have several recommendations to ensure that local 
governments can successfully clean up and develop sites as part 
of our comprehensive plans.
    First, there is more need for funding. I will say it again. 
There is more need for funding availability for local 
governments. We need that strong Federal partner to address 
these sites, no doubt about it.
    [The National Association of Counties submitted the 
following post-hearing amended portion of Mr. Dailey's opening 
remarks:]

        We recommend that Congress maintain or even increase funding 
        for EPA's Brownfields Program and increase the total allowable 
        grant amount so communities can clean up more sites.

    Second, we advocate for a multipurpose grant program which 
would allow local governments to apply for one, rather than 
multiple, brownfield grants to clean up the site. Under the 
current process, county governments bear a significant 
administrative burden because we have to apply for multiple 
grants for one project and have very little flexibility on how 
we apply the grant to meet the needs of the project in our 
local community. This places a burden on our staff.
    Third, as local governments acquire brownfields, our 
ongoing risk of incurring liability under Federal environmental 
laws is a continued concern and may prevent us from even 
acquiring the sites in the first place, as my colleagues have 
also testified.
    This is especially relevant, as it was mentioned prior, for 
``mothball'' properties where the current property owner is 
unreachable or unwilling to discuss a property transfer or 
improve the site conditions. These sites are often delinquent 
on property taxes, and the local government must foreclose on 
the property to address the contamination. However, this is the 
option of last resort because of liability issues.
    While a number of the States have clarified brownfields 
liability protections for local governments, there is a need 
for a more permanent national solution.
    We believe that Congress should exempt local and State 
governments from liability if they neither caused nor 
contributed to the contamination and exercised due care with 
contaminants once they acquired the site.
    In conclusion, we look forward to working with the 
committee to address revisions to the Federal Brownfields 
Program. Together, we can transform our communities and lay the 
groundwork for a new and better future.
    Thank you again for the opportunity to testify today on 
behalf of America's 3,069 counties. I welcome the opportunities 
to address any questions that the committee may have.
    Thank you.
    Mr. Graves of Louisiana. Thank you, Commissioner.
    Our next witness has been misled in the pronunciation of 
her name. Coming from south Louisiana, we would pronounce that 
very differently. However, I will respect the Kentucky approach 
here.
    Ms. LeFevre. Right.
    Mr. Graves of Louisiana. And I want to introduce Ms. Amanda 
LeFevre from Kentucky Brownfield Redevelopment Program.
    Ms. LeFevre. We also say Versailles, too, instead of 
Versailles. So please forgive us.
    But good morning, Chairman Graves, Ranking Member 
Napolitano, and members of the subcommittee. Thank you for 
having us all here today to talk about this subject.
    My name is Amanda LeFevre. I am the vice chair of the 
Brownfields Focus Group for the Association of State and 
Territorial Solid Waste Management Officials.
    ASTSWMO is an association representing the waste management 
and remediation programs of the 50 States, 5 territories and 
the District of Columbia. ASTSWMO is a strong supporter of the 
Brownfields Program. Brownfields are evidence of our country's 
proud industrial, commercial and social heritage. These once 
thriving properties, now abandoned, contribute to the economic, 
social and environmental decline in the places we live, work 
and play.
    However, the redevelopment has substantial benefits. 
Brownfields redevelopment sparks job creation and private 
investment, encourages infrastructure reuse, increases property 
values, improves the tax base, and facilitates community 
revitalization.
    For the past 15 years, State and territorial Brownfields 
Programs, in collaboration with local communities and our 
Federal partners, have served to break down the barriers to 
redevelopment. Section 128(a) funding has allowed States to 
building a buffet of services particular to their State's 
specific needs.
    Services can be accessed and combined, depending on the 
project and the entity pursuing the project. At any given time 
you will find State program staff across this country providing 
environmental site assessments, assisting communities to apply 
for Federal brownfield grants, providing education on 
brownfield redevelopment, assisting entities to manage risk and 
liability, providing crucial technical support, and managing 
the volunteer cleanup programs that are the basis for the reuse 
of properties.
    Properties going through our programs may use one or all of 
our services, but the underlying theme is that we cannot 
provide them without the section 128(a) funding.
    While many envision brownfields as just an urban problem, 
we would like to highlight the important role that we play in 
small cities, towns, and rural areas. Due to limited resources, 
these smaller local governments cannot afford to have an 
environmental professional or a grant writer on staff. They 
require a higher level of project assistance.
    In many cases, redevelopment in these towns would not 
happen without those section 128(a) supported services. Since 
the beginning of the section 128(a) program in fiscal year 
2003, funding has been provided at just under the $50 million 
level, whereas the number of applicants has more than doubled. 
In the first year, 80 States, territories, and tribes received 
funding. By 2016, 164 entities requested funding, including 50 
States, 4 territories, the District of Columbia, and 109 
tribes, 8 of which were new.
    The awards in 2003 averaged $618,000. In 2016, they 
averaged $293,000. As a result of this budgetary slide and 
inflation, States have increasingly resorted to cost saving 
measures, such as brownfield staffing reductions, cutting or 
eliminating the amount of assistance provided, increasing fees, 
and reducing the number of environmental assessments.
    This especially impacts our rural partners as they 
frequently require more support services than some of our urban 
partners.
    We are at a critical juncture in our national history where 
expansion of our municipal boundaries, while attractive short 
term, lead to increased infrastructure costs that we can ill 
afford. While rebuilding our infrastructure, we have the 
opportunity to revitalize the surrounding areas which will help 
build a more robust economy. Brownfield development and 
economic development go hand in hand.
    Keep in mind that brownfield investment is a good one. The 
funding provided for brownfields redevelopment multiplies in 
our communities and attracts additional public and private 
investment. According to the studies indicated in my written 
testimony, $1 of brownfield investment in Delaware generates a 
$17 return on the State's initial investment. In Wisconsin that 
$1 leverages $27 in total funding and resources. In Oregon, $1 
equals about $15, according to a 2014 study, and in Michigan in 
2016, if you spend $1 on brownfield redevelopment, you received 
about $34 in leveraged funds.
    And brownfields, of course, are the gift that keep on 
giving. Since 2015, Oklahoma has garnered over $10 million in 
new State and income taxes annually on remediated sites. A 2014 
study of Oregon's program found that the 51 completed sites in 
their survey generated 4,300 permanent jobs. Sixty percent of 
those were in the industrial sector.
    To summarize, ASTSWMO believes that a robust Brownfields 
Program at all levels of Government is essential to our 
Nation's economic, social, and environmental health. The 
ASTSWMO position paper, ``128(a) `Brownfields' Grant Funding,'' 
which was provided with this testimony, gives additional 
information on ASTSWMO's support for the program.
    We thank you for this opportunity to offer testimony today, 
and I will be happy to answer any of your questions.
    Thank you.
    Mr. Graves of Louisiana. Thank you, Ms. LeFevre.
    And finally, for cleanup, our last witness is Mr. Jonathan 
Philips with Anka Funds.
    Mr. Philips.
    Mr. Philips. Good morning, members of the committee. I am 
Jonathan Philips, managing director of Anka Funds out of 
Raleigh, North Carolina.
    Anka Funds invests institutional capital and expertise in 
strategies that often concurrently help solve environmental or 
societal problems. We have acquired approximately 700 
properties and spun out of Cherokee Investment Partners, which 
prior to the 2008 crash, had been recognized as the world's 
largest and most active firm specializing in brownfield 
revitalization.
    And given what we know about the causes of the brownfield 
problem, the market forces that both inhibit and encourage 
remediation and redevelopment, existing Government programs to 
encourage redevelopment, and the criteria that markets use to 
select particular sites for investment, we ask: how do we solve 
the overall problem? How do we move beyond the current 
situation where some of the sites are being remediated and 
redeveloped while literally hundreds of thousands of others 
continue to languish?
    A friend once told me that for every complex, difficult 
problem, there is usually a simple solution--and it is usually 
wrong. I think that is true for the brownfield issue generally.
    If there were one simple solution, we probably would have 
found it and enacted it long ago. On the one hand, the problem 
seems clear cut. The costs associated with redeveloping a site 
must be outweighed, when adjusted for risk, by the potential 
economic reward from that transaction. Viewed on that level, 
the solution becomes one of reducing costs and risks or 
increasing potential income.
    On the other hand, the problem is much more complex. In 
2005, 2006, 2009, and 2015, I encouraged congressional 
committees to think about sites as being ``underwater'' or 
``above water.'' A few brownfield sites may be already 
economically ``above water.'' That is to say, without 
additional incentives, those sites will still likely be 
revitalized soon. The risk of unknowns may still drive some 
developers away, but the project is economically viable.
    The other sites, sort of in the middle band, are those that 
are marginally ``underwater.'' That is to say that with some 
coordinated efforts, focus, creativity, and a modest economic 
push, the sites would likely be redeveloped within a reasonable 
period of time.
    And then there is a third category of sites in less 
attractive real estate markets and/or those with more 
substantial contamination. Those sites may be substantially 
``underwater'' and without significant help may never be 
cleaned up.
    Viewed on this level, the solution becomes more 
multifaceted. Policymakers need to increasingly understand that 
the problem of brownfields is nuanced, and solutions must be 
nuanced and targeted, as well.
    Some would prefer to focus attention on the geographical 
intersection of the most polluted sites and those with the 
lowest intrinsic real estate value, as these are the ones that 
most need the help from the public sector for reclamation to 
occur.
    Other folks would prefer to target sites that fall within 
the geographical intersection of those with most economic 
development potential and those that are most easily, cheaply, 
and quickly revitalized. So, you know, perhaps the answer is a 
combination of those two views.
    If we, as a country, really want to attack the brownfield 
issue on a nationwide basis, it is clear that we must create 
policies that will truly move the meter well beyond assessment 
assistance and expensing provisions--though such programs have 
been and continue to be important.
    I believe it is on this front that the Federal Government 
can have the biggest impact. The challenge should not be to 
create a new program that helps better characterize brownfield 
sites or that tries to create a larger role for Federal 
agencies. The Federal Government's challenge should be to look 
for bold, innovative ways to reduce barriers and create 
incentives to attract significant volumes of private capital 
and hire leaders who know how to do this.
    I have spent a good amount of time thinking about creative 
ideas related to this issue, from both a policy perspective and 
also as an investor who could benefit from a good many programs 
that have been put in place over the years across different 
agencies. The fruit of some of this thinking was the UBIT tax 
exemption for eligible nonprofits investing in qualified sites, 
an idea I personally developed in 2000 and one that was passed 
into Federal law as part of the American Jobs Creation Act of 
2004 with active, bipartisan support.
    I understand members of this committee and also in the 
Senate have been working on a reauthorization of this 
legislation. This is just one example of the Federal 
Government's creative path to leveraging private capital to 
clean up and recycle America's lands.
    It is my basic assessment that the sites most plaguing this 
country are more often than not either those that would produce 
net losses for private investors or those with a risk reward 
ratio that is significantly unattractive relative to 
traditional greenfield development. In either case, the problem 
stems from rational economic decisions based upon local forces 
of supply and demand.
    With strong public guidance, private forces can operate 
efficiently to produce revitalization in places where 
communities most need it, but where without such involvement, 
revitalization may not occur.
    Right now the EPA has a unique opportunity to dig deep into 
the anatomy and, if I may borrow a phrase, ``the art'' of a 
private brownfield deal and understand and alleviate the 
obstacles that remain. Doing so will forge a pathway where one 
day the Federal Government's expenditures will drastically 
reduce and be reserved for a much smaller group of sites.
    It will take very concerted leadership at the highest 
levels of the EPA and other agencies to make this happen, but 
it is doable and will not require large expenditures of 
taxpayer dollars.
    With less than 4 percent of the Nation's brownfields having 
been cleaned up in a decade following the EPA's coining the 
term ``brownfield,'' it is clear that more needs to be done. 
Clearly, if we are to be successful, the Federal Government 
must be an active and significant facilitator and partner in 
this effort to attract private investment to solve this problem 
in our lifetime. We have an opportunity to make real headway 
and leverage the private sector as never before.
    Thank you for your invitation to provide testimony to the 
distinguished members of this committee and repeat our sincere 
interest and willingness to continue to serve as a resource to 
you and your colleagues as you do your good work.
    Mr. Graves of Louisiana. Thank you, Mr. Philips. I 
appreciate it.
    For the first round of questions I am going to defer to the 
gentleman from Illinois, Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman.
    I appreciate you convening this panel today. Great 
testimony, and this is a very important issue even in rural 
communities that I serve in central Illinois.
    I would like to ask the panel about access to brownfields 
grant funding for some of those rural communities. One such 
community in my district in Litchfield, Illinois, has been 
working with our regional office, EPA region 5, and the 
Illinois EPA to secure funding to clean up and redevelop a 
specific property, but unfortunately has not yet been 
successful in acquiring that funding.
    The city continues to be told that no funding is available 
to assist, and the property in question, a small property, sits 
downtown and it impacts economic viability during the year when 
community events are bringing thousands of people to that rural 
community.
    Can any members of the panel address any disparities that 
exist for rural communities having access to brownfields funds 
and make some recommendations for having to improve them?
    Who wants to start? Ms. LeFevre.
    Ms. LeFevre. Well, in Kentucky, I mean, if you have ever 
been there, it is mostly green space. So incentivizing----
    Mr. Davis. And horses.
    Ms. LeFevre. And horses and some bourbon out in the corner, 
right?
    So when we first started our program, really all we could 
do for you was assessments, but our program in particular, and 
all of our programs are different across the States. We have 
been given that latitude to create what each State needs.
    So part of our strategy, we cannot give you funding, but we 
can actually help you get better access to that. And as you 
know, the brownfield cleanup grant competition is highly 
competitive. So what we undertook was a strategy of teaching 
communities who did not have a grant writer on staff how to 
better write grants, how to make them more competitive.
    So we created a lot of those support services. We also 
worked with our Area Development Districts. I am not sure if 
Illinois has something similar.
    Mr. Davis. Oh, yes, we do.
    Ms. LeFevre. If you can educate your Area Development 
Districts on those grants as well, they have been strong 
supporters of brownfield cleanup grants and things like that, 
and they work with their smaller communities.
    A lot of times those smaller communities need those gap 
services. So that is where our State and local Area Development 
Districts really come in.
    Mr. Davis. OK.
    Ms. LeFevre. So it is more building a support system that 
will help them because they are at a disadvantage because you 
have a lot of consultants writing grants and professional grant 
writers. So you have got to get them on a much more even 
playing field.
    Mr. Davis. Thank you for your suggestions.
    Mr. Philips, in the development business that you are in, 
do you see this disparity with any of your properties?
    Mr. Philips. Well, there is no question that redevelopment 
of brownfields from the private-sector perspective is driven 
completely by the real estate markets, and that is the local 
real estate markets. And so if that particular rural community 
has an attractive real estate opportunity, that is going to 
drive the private capital. That is fundamentally what folks, I 
think, need to understand.
    Now, in rural communities, there are opportunities to be 
creative. People have used the USDA loan program. People have 
included solar credits as part of brownfield sites 
redevelopment. They have included monies from broadband 
infrastructure in rural communities.
    So people get really creative with dipping into different 
pockets, but at the end of the day, you know, it is 
interesting. I think the EPA and the administration and 
Congress can really do a great job here in focusing attention 
and being a facilitator for more difficult sites or sites in 
areas where maybe there is less economic activity.
    There was a site in Oklahoma called Tar Creek that we 
toured with Senator Inhofe at the time. He had asked to come 
and look at a private buyout of residents who happened to be in 
that locality and who were concerned about contamination. And 
what it did was it really focused the lens on that area and 
allowed other private companies to come in and were interested 
in the sites and began poking around, and it spurred some 
activity.
    And I think that helps in some of the rural settings.
    Mr. Davis. Thank you. Thank you.
    Mr. Zone, I want to go on to another question real quickly 
while I have got a couple of seconds. What you guys have done 
in Cleveland is amazing. I was there this summer, a beautiful 
community. You guys did great at the National Convention, which 
was probably the best logistically run convention I have been 
to out of three. So congratulations to the city of Cleveland.
    In cases where State and local governments involuntarily 
acquire brownfields by bankruptcy, abandonment, et cetera, how 
do they protect themselves from liability?
    And what about cases where they voluntarily acquire these 
sites, too?
    Mr. Zone. So this summer they were calling for a riot and 
we threw a block party in Cleveland. So thank you for coming.
    You know, local governments can take control of property 
through a variety of means, including tax liens, foreclosure 
purchases, and the use of eminent domain in order to clear 
title.
    Consolidating multiple parcels can be very challenging, but 
when you are looking to put forth an economic, viable project, 
sometimes you need to do that. So we have been conducting site 
assessments, remediating environmental hazards to address 
public health and safety issues and otherwise preparing the 
property for development by the private sector or public and 
community facilities.
    The issue is that CERCLA includes liability defenses and 
exemptions that may protect local governments, and the optimal 
word there is ``may,'' that involuntarily acquire brownfields.
    We have acquired property through tax delinquencies, and 
you know, one of the examples cited in the law often presumes 
that we are protected. That creates exposures for cities.
    I would be happy to follow up, Mr. Chairman, at a later 
date if that is appropriate.
    Mr. Graves of Louisiana. Thank you. Thank you, 
Councilmember.
    I want to defer to the gentlewoman from California, the 
ranking member of the subcommittee, Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chair.
    This is for the entire panel. Based on current 
appropriations to the Brownfields Program, we know that EPA can 
only fund 30 percent of qualified applications that are 
submitted to the agency annually. The funding deficiency delays 
vital community redevelopment plans and prohibits business 
expansion.
    In your opinion, what would be the beneficial amount to 
increase the authorized funding level to the program?
    And should we increase it, yes or no?
    [Many panelists nod.]
    Mrs. Napolitano. Yes. And to what level?
    Mr. Zone. The total amount? Well, we have been asking for 
up to $1 million per project, and in some instances, you heard 
the mayor talk about maybe in special exemptions up to $2 
million.
    Mrs. Napolitano. No, for the whole program. All of it. What 
would happen if it were doubled? What would happen to the 
ability for you to file and get cleanup?
    Mr. Bollwage. Currently, in every congressional district in 
this country there are at least 30 identified brownfield sites, 
and if you look at the 30 identified brownfield sites at a 
minimum in every congressional district and you pick a number, 
I think this panel would gladly leave it up to this body on 
what number you would want to pick.
    Mrs. Napolitano. But what would you do with the money is 
what I am asking. Every community, would it help foster your 
economic growth, your cleanup?
    Mr. Bollwage. Oh, go ahead. Absolutely, yes. All of that.
    Ms. Robertson. Yes, without a doubt, Member.
    I would just like to say, echoing what they are saying, as 
I said earlier we have just in Rialto alone 25 identified 
sites. That is not counting surrounding communities, and even 
though Rialto and the areas, such as Colton and my neighbors, 
we are all seen as urban or suburban areas.
    I would think that if you were to increase the program, 
perhaps we would be able to move forward on not only our own 
sites, but also on some of our neighboring sites, such as the 
application I have right now.
    Mrs. Napolitano. Well, what would it mean to the economy to 
each site?
    Ms. Robertson. Right, but at least it would allow us to 
include, do multijurisdictional assessments with the county and 
with our local agencies, and so we could attack and address the 
issue, I think, a more effective way if we knew we had more 
resources available.
    Currently, we have to decide how can we, one, be successful 
and at the same time do it in a manner that we look at 
multijurisdictional applications from now on.
    Mrs. Napolitano. OK. And you heard me state that we sent 
the letter to the leadership in regard to the cut of funding to 
the EPA program, the Brownfields Program. We have not received 
a response.
    Are any of you concerned about the elimination of the 
program?
    Mr. Zone. Yes, absolutely, and I would say that only about 
one-third of all applications that are submitted are actually 
funded. So to answer your previous question, if you increased 
the program by three, I think that would be moving in the right 
direction.
    Mrs. Napolitano. Anybody else?
    Mr. Bollwage. A couple of weeks ago, I met with the 
Administrator, with the U.S. Conference of Mayors, and part of 
his comments were extremely encouraging when it came to funding 
brownfields and Superfund sites.
    Mrs. Napolitano. Just remind him of that.
    Mr. Bollwage. I am. Hopefully, I will have the opportunity 
to do that, but he also said that he was going to take that 
position to the White House and be firm and stern about funding 
brownfields and Superfund sites, and he saw that from his 
perspective as the new Administrator as a priority in the 
upcoming budget.
    Mrs. Napolitano. Let's hope the President agrees with him.
    Mr. Bollwage. I agree, Congresswoman.
    Mrs. Napolitano. One of the original goals of the 
brownfields law was to invest in communities of underserved 
populations. Has the implementation followed through on the 
original goal? Anybody?
    Ms. Robertson. Well, if you do not mind, I would like to at 
least address that to begin with. In some degree, the money, 
the resources that have been made available in Rialto has 
definitely helped. When I was making my comments earlier about 
the Federal legislation that allowed for the relocation of the 
general aviation airport, it was very ironic. The city took on 
the facility which was really in the past a military 
installation.
    Yet when it was time for us to do cleanup and identified 
hazardous waste there at that property, because the city owned 
it, it is back to what we were talking about: the liability 
that becomes a big problem.
    We could not even apply funds to that. Nonetheless, we are 
moving forward. We are redeveloping an area that is going to 
bring about a significant retail, commercial, industrial, and 
housing area to the tune that when we build out the total 1,500 
acres, we are going to see approximately a $2 billion 
investment.
    Sadly, that investment and what we will see envisioned will 
not have occurred with the brownfields dollars. But 
fortunately, we have used them in other areas within the city, 
an 18-acre area where we are going to be able to do similarly, 
and we will be able to bring about a public fire station and 
other open spaces.
    So it has been an advantage to the underserved communities.
    Mrs. Napolitano. Thank you, Mr. Chair.
    Mr. Graves of Louisiana. Thank you, Ranking Member.
    We are going to next go to Mr. Ferguson from Georgia.
    Mr. Ferguson. Well, thank you all for taking time today.
    It was not but just a few months ago I was sitting where 
you all are as mayors and representatives of your local 
communities. Lord, sometimes I surely do miss that compared to 
what we get to go through now.
    But I will say this. As a mayor, I have dealt with this 
issue before, and I was mayor of a community that really had to 
go through an important revitalization to begin to put itself 
back on track.
    And one of the things that we found that was very, very 
difficult in this process with brownfields was the complexity 
of the process, and we always tried as a local government to 
make the process of application through the permitting as 
smooth as seamless as possible.
    Could you all address, you know, two issues? First of all, 
how would you recommend or what are your thoughts on 
streamlining the process, getting through the procedures?
    Because that is one of the things that developers would 
always come to us and say. ``Hey, we understand there is a 
process here, but sometimes it is so complex and so complicated 
that the economic viability of the project is in jeopardy 
because of the longevity.''
    And private dollars will follow the opportunity to make a 
profit, and they get hung up in a swamp, so to speak, it really 
makes it more difficult.
    And the second thing is: can you all speak to--and, Mr. 
Philips, maybe you could address this--how much, even with 
brownfield grants; what is the economic viability gap on many 
of these projects, particularly in rural communities, and how 
would you address that?
    So we will start with Mr. Dailey, if you do not mind 
talking about how would you streamline the regulatory process.
    Mr. Dailey. Congressman, that is a fantastic question, and 
we appreciate it. What we tend to forget nationwide is that 70 
percent of the counties have a population of 50,000 or less. We 
are small; we are rural, and so we deal with these issues day 
in and day out.
    In the State of Florida, we have a population of over 2 
million, half of which live in the unincorporated areas. We 
deal with these issues every day.
    Counties are in charge of comprehensive plans in many 
situations. And addressing brownfields is a piece of the 
puzzle. Getting back to the funding issue, those in small 
communities do not have tremendously big staffs.
    My colleague testified to the fact, and this goes directly 
to the process; my colleague testified to the fact that when we 
have smaller communities with smaller staff, there are staffing 
gaps that we need to address as well.
    But the fact of the matter is that when we are dealing 
specifically with private industry on a particular project, if 
we say, ``I am afraid that this process is going to take 
anywhere from 18 to 36 months. We are going to have to apply 
for several grants from beginning to end in order to accomplish 
our goals.''
    A lot of times the private industry might not be interested 
in moving forward with the more extended timeline; on top of 
that, for us to be even able to dedicate the staff.
    The answer is, number one, of course, more funding, and 
every opportunity that I have to speak, I will stress that 
need. I think we all agree that more funding can be put into 
the program, it would be great because it also levels the 
playing field for our smaller rural communities to be able to 
compete for these projects.
    Number two, more flexibility within the grants themselves. 
If you could be able to empower local governments to work hand 
in hand in partnership with the Federal and State governments 
along with the private sector on these particular programs, 
that would be fantastic.
    First and foremost, funding; secondly, flexibility.
    Thank you.
    Mr. Ferguson. Mr. Dailey, I am going to go to Mr. Philips. 
I have only got about a minute here.
    If you could briefly touch on that economic viability gap 
question.
    Mr. Philips. Sure. I think the gap is really huge, 
honestly, for most of the sites that concern people, and the 
gap is not just in fungible dollars as we think about it. The 
gap is in time, and this is particularly true for the 
investment community.
    You know, your return on investment clock, your IRR, is 
ticking, ticking, ticking, and every moment that you wait for 
the next step, for approvals and for processes, it just makes 
it much more difficult.
    Just to give you a feel: a couple of years ago we did an 
assessment internally to see how many sites are we looking at, 
how many sites come through that funnel and that we actually 
invest in. Now, remember this was the largest investor in 
brownfields in the world.
    We reviewed about 450 sites, and in the next 2 years we 
were able to invest in 10 of those sites. We researched these 
and found out other entities across the world only invested in 
an additional 10 of those sites, leaving 430 of those sites 
underwater, unable to attract investment, and this is despite 
the State and Federal programs and incentives that existed at 
the time, and these were not rural sites mostly, I can assure 
you.
    So in terms of the gap, it is significant.
    Mr. Graves of Louisiana. Thank you, Mr. Ferguson.
    We are going to go to the gentleman from California, Mr. 
Lowenthal.
    Dr. Lowenthal. Thank you, Mr. Chairman, and thank you for 
all the witnesses for joining us today and really informing us 
on some of what is really taking place in the communities 
regarding the Brownfields Program.
    I am really glad that we are having this hearing and that 
we can understand a little bit more what the Federal 
Government's role is in working with the States and localities 
in funding and helping to redevelop many of these sites.
    You know, I think the Brownfields Program has been a great 
example of a win-win situation which both improves the 
environment, improves the health of our citizens, and at the 
same time spurs economic growth and development. That is a win-
win situation.
    That is why I am particularly disturbed when I read that 
the program might face severe cuts. You know, we talked about 
what additional monies we have heard you might need, but let's 
just talk about the reality, that this program might receive 
severe cuts or even elimination if the President and the EPA 
Administrator have their say and that is really the direction 
we move in.
    So really I want to start with Mayor Robertson. You know, I 
represent the port area of Long Beach, and so I am familiar 
with many of the critical issues that face Rialto and the other 
cities in the Inland Empire that serve as logistic centers, and 
so we are really connected to each other.
    So what happens in reality in Rialto directly affects my 
district also, and so I am very impressed with what you are 
trying to do.
    So my first question is: could you really elaborate a 
little bit more deeply on some of the positive benefits of your 
successful projects?
    Tell us a little bit more, Mayor Robertson, about some of 
the successful projects and what the benefits have been 
economically and also to the health of your community.
    Ms. Robertson. Thank you. Thank you, Member.
    You know, I guess I would just quickly say that one of the 
things this tool, this program, has really helped Rialto in the 
community and a lot in California with public-private 
partnership, a willingness for our partners to know that we are 
in this together.
    From that, just recently in a lot of the sites that we have 
identified in Rialto and that we have actually done the cleanup 
of the hazardous areas in partnership with some of our 
developers, we have managed to help them cobble together a lot 
of small pieces of property to facilitate the development of a 
major industrial or warehouse. It brings directly 1,500 jobs 
every time we assemble some land and we create a more efficient 
way to use the land.
    At the other side, the other thing I need to speak to 
constantly we seem to lose and I know from your district we 
have all dealt with health assessments.
    Dr. Lowenthal. Yes.
    Ms. Robertson. And what is ongoing not only from the mobile 
activity, the mobile source of what is in the air, the 
particulate matters, but we also have to recognize that because 
if we fail to address these areas, a lot of these brownfields 
are also fallow land, dry land, and the elements are still in 
the air and then they are contributing factors not only to the 
adults and the people in the area that are working, but they 
are contributing factors to a lot of our young adults who are 
now highly affected with asthma conditions.
    So it is imperative that we address it and we figure out 
how to address it not only, yes, the economic opportunity is 
great because it brings about jobs; it brings about some local 
revenue to our community; it helps us come up with some type of 
sustained revenue source for the local jurisdictions.
    But it also has a significant health impact, and we are not 
talking about only airborne, what is in the air, but also what 
can go into the air by the fact that we continue to not address 
these designated, identified brownfield sites.
    Dr. Lowenthal. This is for any, including yourself, Mayor 
Robertson.
    We are living in a time of uncertainty. We are not sure 
where the EPA is going, what funding will be available. I am 
wondering how does this uncertainty affect your planning 
process. Anybody.
    Where are you now hearing about these cuts and not really 
understanding whether this program will be cut, not cut?
    What is happening in the communities now about planning?
    Anybody want to jump in?
    Mr. Zone. I would just add, Congressman, the private sector 
wants predictability. You know, the public sector dollars is 
the yeast that raises the dough from the private sector. There 
is so much uncertainty right now that the private sector is, 
quite frankly, skittish. They want to know if I am going to 
invest in an area, is Government going to be with me and 
supporting me, and there is a lot of uncertainty.
    Dr. Lowenthal. Yes. Thank you, Mr. Chair, and I yield back.
    Mr. Graves of Louisiana. Thank you, Mr. Lowenthal.
    We are going to go to the gentleman from New York, Mr. 
Katko.
    Mr. Katko. Thank you, Mr. Chairman.
    And thank you all for your testimony today.
    Mr. Dailey, I have to note at the outset that I am 
absolutely shocked and stunned that you think more funding 
would be helpful.
    [Laughter.]
    Mr. Katko. But I, quite frankly, happen to agree with you. 
I am from the industrial Northeast, and Syracuse has been 
ravaged by loss of industry, but loss of industry also comes 
brownfields because they are not always the best stewards of 
the environment when they leave, and that is always a problem.
    So I happen to agree with you, and I am proud to say I have 
partnered with my colleague on the other side of the aisle, Ms. 
Esty, to present a reauthorization bill that we introduced 
today and we hope to see Congress act on that bill because we 
truly believe this is a critically important program to 
revitalize areas.
    There are towns and cities all across my district, Auburn, 
New York; Wolcott; Fulton; Oswego; Syracuse, and others have 
all benefitted from that program, and the differences have been 
absolutely remarkable.
    It is a critical aid to the redevelopment and the use of 
blighted properties, and I really hope that we can continue 
robust funding of this.
    Now, my colleague, Mr. Ferguson, noted about the complexity 
of the process, and I wanted to dig into that a little bit 
deeper because that is something I am very interested in.
    Assuming we can be successful, Ms. Esty and myself and 
others, in getting this reauthorization, I want to know how we 
can make it better. It is clear to me from talking to 
businesses across my district that time and again that 
overregulation and the labyrinth of paperwork and regulatory 
structures are choking businesses just as much as the programs 
themselves sometimes.
    So if someone can just give me some examples, pick one 
thing. What is one thing we could do to really make this 
process less complex?
    Let me start with the councilmember from Cleveland because 
I want to go to the Rock and Roll Hall of Fame, and you are 
making me think of it. So we will start with you.
    Mr. Zone. Well, Congressman, I would love to give you a 
behind the scenes tour.
    Mr. Katko. Oh, be careful about that because I will take 
you up on it.
    Mr. Zone. I am going to give you my card at the end of the 
hearing.
    If I had to give one thing, we have reviewed the summary of 
your bill. Thank you for putting that forward. We would hope 
that the Brownfields reauthorization could include liability 
protections for local governments that take ownership of 
properties through both voluntary and involuntary means.
    The example that I cited about the Trinity Building, what 
once was a public safety hazard, we came in there to remediate 
the public safety hazard. Now we are left with an environmental 
hazard on our hands.
    So really holding governments harmless who were not the 
original polluter would be the one thing I would encourage you 
to include in your bill.
    Mr. Katko. Thank you.
    It is funny you say that. I was just thinking of a property 
in Syracuse where they were a scrapyard and adjacent on 
Onondaga Lake, and they basically just went out of business, up 
and left and just basically left the keys on the table for the 
county to mop up.
    And that is the type of thing I am concerned with, and we 
need to do a better job with that. So your point is well taken.
    Anyone else want to chime in? Mr. Bollwage?
    Mr. Bollwage. Congressman, section 3 of your bill where it 
talks about multipurpose cleanup grants would be extremely 
important in streamlining the process because it affords a 
flexibility opportunity for not only the developers, but the 
municipality as well.
    Mr. Katko. Thank you.
    Anyone else? Mr. Philips?
    Mr. Philips. On the issue of----
    Mr. Katko. I feel like I am in a game show. Whoever presses 
a button first I call on. So this is fun.
    Mr. Philips. On the issue of complexity, I would just note 
that it tells you something when cities that are active in 
brownfields redevelopment are the ones that have to hire a 
brownfield coordinator as a full time position in the city or 
the county.
    I mean, think about that for a moment. A city has to hire a 
special person just to navigate through the complexities of 
these different programs, of the grants, of the assessments.
    You know, so there is not enough time to go into the 
complexities in detail now, but I think we were certainly in 
agreement with the premise of your question.
    Mr. Katko. Well, I encourage after the hearing feel free to 
submit Ms. Esty and myself or others some of the laundry list 
of things we can do to make it less complex because, you know, 
we are in an era where we are reviewing the overregulation of 
everything, and this is a good time to have a wish list.
    So I encourage you to have a wish list. Does anyone else 
want to chime in?
    Ms. Robertson. Yes.
    Mr. Katko. Ms. Robertson.
    Ms. Robertson. I just would like to say along with the 
things that they identified I guess for me and for a lot of us 
in the local communities it would be great if we could 
expedite. Sometimes the time alone just to know if, in fact, 
you are going to be successful in a competitive process.
    We already know that there are way more projects than there 
is money available, but then you have to still wait. So if we 
had some way of knowing a preliminary of whether we are going 
to get the nod or not, we need, yes, it clearly goes without 
saying. Everybody says we need more money, but the other thing 
I would say, too, is it had created kind of an industry niche 
in Rialto because we have 95 companies that specialize in 
hazardous waste cleanup.
    So I don't know. It spurs growth. It spurs jobs, and it 
gives us an opportunity to have that qualified staff and 
consultants available and onboard.
    Mr. Katko. Thank you very much.
    I know my time is up, but I encourage all of you to please 
submit some papers on this because they are very helpful, and 
we will look at them.
    We are committed to try and streamline the process. We 
understand very well how regulations sometimes well intended 
can end up as a whole really choking the process to the point 
where it is not worth it, and that defeats the purpose, and we 
do not want that to happen here.
    Rest assured Ms. Esty, myself and others, we are robust 
supporters of this program, and we will work hard to keep it.
    Thank you very much, and I yield back, Mr. Chairman.
    Mr. Graves of Louisiana. Thank you, Mr. Katko.
    The gentlewoman from Connecticut, Ms. Esty.
    Ms. Esty. Thank you, Chairman Graves and Ranking Member 
Napolitano, for convening this hearing today on an incredibly 
important topic, and as you may have gathered, rare in this 
place these days, one of bipartisan support because we know as 
you indicated, Mr. Bollwage, this is across every single 
congressional district in America. The low estimate is 400,000. 
The high estimate is 600,000 sites.
    They are gas stations in our rural communities at 
crossroads. They are large industrial sites like the brass 
centers in Waterbury, Connecticut, that I represent, and these 
are all opportunities as well as obligations for us to do 
better.
    So I wanted to lay out a few things, a bit about the bill 
that Mr. Katko and I are introducing today, get your response, 
but also to have you think about while I am doing that about 
some of the themes that I heard from you: the importance of 
predictability; the importance of de-risking. You did not use 
that language, but de-risking is critically important for 
liability. The assessment grants are about de-risking so that 
people like Mr. Philips know what they are getting into.
    And the importance of saving time which translates to 
money, and so if we are going to leverage those private 
resources, we have to find ways to get determinations, as Mayor 
Robertson noted. Yes or no, let us know so we can move forward.
    And we are all committed to doing that. We have got what we 
think in part, due to many of you and your organizations helped 
us craft this bill over some considerable period of time, but 
it certainly can be improved, and we look forward to continuing 
to work with you and our colleagues across the aisle to get the 
right bill that can make it through both Houses and get signed 
by the President, get out there making a difference in our 
communities.
    So I wanted to talk a little bit about those provisions and 
lay them out. One, it creates multipurpose grants. This is 
something I was just in New Britain, Connecticut. We do not 
really have those. So we have right now our State is doing 
this, and Connecticut is one of the States doing it, but 
clearly we have heard from everybody this crosses across 
jurisdiction.
    We need more flexibility, to go to the point. Commissioner 
Dailey, I think you mentioned the point of flexibility. We need 
flexibility. So that is going to allow characterization, 
assessment, inventory, planning, remediation with greater 
certainty over funding streams and can flow into the areawide 
planning revitalization, which I know especially, again, can be 
important when you have got properties that cross boundaries.
    It also clarifies and expands eligibility. We have 
discussed this at considerable length. If we are going to have 
public-private partnerships, there is not enough money in the 
Treasury to clean up every one of these properties so the dirt 
can be eaten with a spoon.
    That is not the objective. The objective is to try to get 
them back into play to make sense to deal with category 1, Mr. 
Philips, of the worst contaminated sites that are public health 
hazards. Clean those up, and the category 3 things that can get 
back into productive use. How do we leverage those? How do we 
move both of those categories?
    To encourage those partnerships, our bill expands 
eligibility for brownfields grants to certain nonprofits that 
have been excluded; limited liability corporations; limited 
partnerships; and community development entities. And I can 
tell you Waterbury, Connecticut, where I do a lot of work, this 
has been a huge stumbling block for them.
    They have a redevelopment authority. It is not actually the 
city that wound up with the keys, as Mr. Katko noted. They wind 
up with the keys, and the entity that is empowered to do it 
actually is ineligible for these grants.
    Well, that is clearly wrong, and with your help, hopefully 
we will fix it.
    It also expands to include governments that acquired the 
brownfield sites prior to 2002, and we know those legacy sites. 
How could you possibly have complied with the post-2002 rules 
pre-2002 unless you were clairvoyant. You were not able to do 
that.
    And, third, the bill eliminates eligibility barriers for 
petroleum brownfield sites. We know that in certain communities 
that has been a huge issue. I have got one two blocks from my 
house which we are still waiting to get fixed.
    So we have talked a little bit about expanded liability. 
Commissioner Dailey, maybe you can talk a little bit about the 
multipurpose grants and what a difference that might make if we 
expand, as our bill does, to do that.
    Mr. Dailey. Sure. Again, Congresswoman, it is a wonderful 
question. Thank you for the opportunity to speak to it.
    I am sure my colleagues will agree with me. Any time that 
we can provide the most flexibility to local governments to 
make the best decisions on behalf of their communities, we are 
going to be moving in the right direction.
    Any time we make assumptions, either nationwide or even 
within the State, that every community is the same and all 
community needs are the same, I think that we are not moving in 
the right direction.
    So when we look at the multipurpose grants and the 
flexibility within, especially with smaller communities that 
have limited resources to even begin the process, we need to 
provide them flexibility, so that when they are in the game and 
they are moving forward, they have the flexibility to do the 
best they possibly can for their community.
    Ms. Esty. Mr. Philips, just a quick question as the 
private-sector representative. On this de-risking notion, what 
are these most important elements, things you like about the 
bill that we have got out there, things that we could maybe 
improve as we move forward?
    Mr. Philips. Well, first, I would welcome talking to you 
about some details about the bill.
    But I would say that, you know, just in your own State, you 
know, we looked at the Stratford Army Engine Plant, and at the 
time there was no clarity on the cleanup at all. We tried. We 
worked hard. We spent a lot of money. We made a lot of trips. 
We engaged in a lot of officials, and at the end of the day, 
there were multiple entities involved with determining who was 
responsible and how it was going to be cleaned up.
    And we did not even know where to invest dollars, and we 
ended up pulling out. That delayed the process by at least 10 
years, at least a decade, probably more because it still has 
not been redeveloped, and they are looking at it now.
    Ms. Esty. Thank you.
    I appreciate your indulgence and I will follow up with all 
of you again. Thank you very much.
    Mr. Graves of Louisiana. Thank you.
    Next we are going to go to the gentleman from California, 
Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Mr. Chairman.
    Panelists, thank you from joining from a wide range of 
diverse places and backgrounds.
    I have a very rural district in far northern California 
that borders Oregon to the north and just north of Sacramento 
to the south. The largest cities, a couple of them, around 
100,000 and many of them are at 1,000 or less.
    So we have issues as well with brownfields that over the 
years with industrial use, et cetera. But let me give you an 
example real quickly. There is one city in my district called 
Yreka, different from Eureka on the California flag. Yreka is 
right near the top, nearly the Oregon border. It has just 7,000 
residents, but it was able to take a $400,000 grant and turn it 
into many millions in private investments that came in after 
that grant on former mill sites when basically the timber 
industry had been run out of business by regulations, et 
cetera.
    So the brownfield activity that came from that conversion 
has fortunately turned up to a little over $4 million of annual 
activity, and then for a small town, again, like Yreka of about 
7,000 people, the project created about 100 jobs. So 
proportionally, that is pretty good. OK? Not the biggest maybe 
across the country, but for a proportion, it is a pretty big 
hit.
    So I guess for folks on the panel here, maybe I would like 
to get maybe a couple of extreme ends perhaps, Mr. Dailey and 
Mr. Zone, on rural and urban.
    The Federal dollars we put in, does it change a lot based 
on the locality or its size, such as, you know, rural areas 
like mine?
    Does it require a bigger emphasis on the administrative 
side, the staff side proportionally, but at less cost? Do urban 
areas have more cost? Were they able to spread that over a 
wider range of staff or, you know, internal costs?
    But then, on the other hand, are they able to get more 
private attraction out there because it is a large city?
    Mr. Zone, would you like to go first? Then we will call on 
Mr. Dailey.
    Mr. Zone. Thank you, Congressman.
    I would answer your question with a question and then just 
add some commentary.
    I mean, if local government does not perform the cleanup, 
who will?
    And you know, in our city we have cleaned up 13 sites. It 
totaled about 137 acres and invested over $40 million in our 
city, which has created nearly 3,000 jobs.
    We are fortunate. There is our brownfield administrator. We 
have a full-time person. He is now also doing double duties, 
acting as our interim economic development director, but we are 
fortunate and blessed in that respect.
    We are an older, urban legacy city that built America. I 
mean, John D. Rockefeller got his start, Standard Oil, in 
Cleveland, Ohio, and built America, and now we are left with 
these old legacy sites, and we are fortunate to have somebody 
like David, but on the administrative side, it is very, very 
heavy.
    Mr. LaMalfa. Thank you.
    Mr. Dailey. Congressman, a wonderful question. Remember 
that a lot of times your county is going to be responsible for 
the overall vision of the community, which is your 
comprehensive plan, your economic development vision. A lot of 
times it is the county health department which is the first 
line of defense for your health issues in our communities.
    We also are the first line of defense for your 
environmental permitting issues. My point is this: smaller 
communities have smaller staff. Smaller staff are already 
spread thin under normal responsibilities, and as it was 
testified earlier before, some communities have had to 
literally put a new staff person in place solely to handle 
brownfields issues and the county's relationship with the 
Federal Government.
    Is it taxing local communities? Yes, sir.
    Mr. LaMalfa. So do you think that is a disproportionate 
amount of staff per benefit because it is a smaller situation 
at rural or is it made up for by how disproportionately 
positive it could be on local employment, et cetera?
    Mr. Dailey. I think it would be unfair for me to categorize 
every local government as the same, but I will say that 
obviously the smaller the government, the smaller the staff, 
yes, the more taxing it is going to be, which was also 
addressed earlier on some of the service gaps, even before 
applying for the process, let alone carrying through with the 
grants themselves.
    Mr. LaMalfa. OK. Go ahead.
    Mr. Philips. I was just going to add that I think a big 
piece of the answer to your question and probably some other 
questions that are circulating here relates to the kind of 
zoning and entitlement issues.
    What is going to happen to these sites? That is being 
controlled by the local governments, and you know, in our 
experience with rural and smaller communities, they are much 
easier to work with, overall.
    The urban communities, there is just a tremendous amount of 
resistance to development. There is a scrutiny associated with 
every decision that is made that takes more time and takes more 
money. Of course, the cruel irony is that there is generally 
more value--intrinsic real estate value--associated with the 
more urbanized areas. So that is the paradox.
    Mr. LaMalfa. It would seem, you know, when you are talking 
about a brownfield in an urban area there would be even more 
incentive to want to make something flip over to more positive 
on that.
    But my time has expired. So I thank you, panelists, for 
your comments.
    Mr. Graves of Louisiana. Thank you, Mr. LaMalfa.
    We are going to go to the gentlewoman from Michigan, Mrs. 
Lawrence.
    Mrs. Lawrence. I want to thank you for this hearing.
    To the Honorable Mayor Bollwage, we were colleagues. He is 
a mayor's mayor. I am glad to see you and cannot wait to talk 
about our children.
    One of the things I have not heard from a single panelist 
here today was the pushback on what defines property as being 
contaminated. As we move forward today, conversation is about 
our EPA standards and qualifications.
    Mayor Robertson, you brought up asthma, which we know is 
directly tied to air quality and contaminants. I want to hear 
from you.
    I was a mayor for 14 years, and the question of if we do 
not clean it up, who will, I represent Detroit. We are the, 
quote, unquote, Comeback City. If we did not have in Michigan 
over $1 million of investment from brownfields, I can tell you 
that properties and the insurgence of development that we are 
seeing at historic levels would not have happened.
    But it happened not only for development purposes. I get 
that because as a mayor I did not want a site sitting there 
vacant and, you know, undeveloped, but also it gave me that 
sense of responsibility that I must redevelop with 
responsibility for health, quality, respect of the earth.
    So if you are bold enough, I would like to ask that 
question.
    And, Mr. Philips, you are the private guy, and so I know 
you look at the dollars and cents, but you know, I had former 
gas stations that closed down. I had dump sites that are 
sitting there and buildings in Detroit that were almost a 
century old, and you know the quality of the material and 
asbestos and everything that is in the building.
    So would you please talk to me about that? Take a deep 
breath.
    Mr. Philips. With regard to the question of how to define 
contamination, well, for us our opportunity is to invest in 
places where we are wanted and invest in places where we think 
we are solving a problem.
    And so in some ways we use the word ``brownfield'' a little 
bit differently than the EPA has defined it. For us we view 
brownfield as anything where there is a perceived environmental 
issue from historic use or, it is, as people would refer to it 
in the State or Federal sense, a CERCLA or a Superfund site. 
Even if it is a heavily contaminated site or petroleum site, we 
view any environmentally distressed site, or potentially 
environmentally distressed site, as a brownfield, and we think 
that those are opportunities.
    So if we are solving a problem for a community, then that 
is sort of how we define the brownfield target.
    Mrs. Lawrence. Mayor Bollwage, please comment on this for 
me, please.
    Mr. Bollwage. We as mayors, as you know, Mayor, 
Congresswoman, we define brownfield site as any site that has 
basically laid fallow for a number of years and unable to 
generate any tax revenue to our community.
    There are some that are contaminated, and there are some 
that are just not marketable maybe because of location or 
zoning or other issues, but that is within the town's ability 
to correct if that was the case.
    The brownfield sites with some type of minimal 
contamination will need an assessment grant, will need some 
type of followup in order to make it marketable for a 
developer.
    Mrs. Lawrence. Mayor Robertson?
    Ms. Robertson. Yes, I was sitting here thinking about the 
same thing as well. Sometimes it is very complicated because 
the land lays fallow, but then we also have an absentee 
landlord, a person who is not interested in moving forward, 
trying to improve that property. So we have to spend a lot of 
energy resources to try and either bring that property owner 
forward to work with us, figure out a way that we can mutually 
do something because in the case of our city, Rialto, which is 
over 100 years old, a lot of land was bought by others and they 
have moved away. Now they are sitting back and waiting. They 
are waiting for the value to go up, and they are waiting on it, 
and they are not in the environment.
    Mrs. Lawrence. Mr. Zone?
    Mr. Zone. Congresswoman, in your hometown, I mean, it took 
skillful coordination between the Federal, State and local 
governments to clean up and make Detroit the comeback community 
that it is.
    It is not only an economic issue. It is an environmental 
issue, and look at all of those young people in your city who 
are suffering some ill health effects as a result of that.
    Mrs. Lawrence. Yes. Thank you.
    I just want to make this statement before I close. 
Michigan, for every dollar invested, over $35 was generated in 
economic development. The brownfields work. I know that my city 
that I represent would not be the Comeback City and have the 
ability to grow and enhance the overall economic GPA of this 
country without it.
    So thank you so much.
    Mr. Graves of Louisiana. Thank you, Mrs. Lawrence.
    I recognize myself for 5 minutes.
    I am going to take a little bit of liberty here with my 
good friend, the ranking member. I think that we all agree that 
some objectives like environmental restoration and cleanup are 
important; that economic development and returning properties 
to commerce are important; that local revenues and economic 
activity are important. And I think we agree on that.
    I think that the more we can do to eliminate blight is an 
objective that we share. Obviously, ensuring that we have an 
efficient program and removing bureaucratic hurdles, I think, 
is important to both of us, and I think we both support 
additional funding for this program.
    In moving forward, I look forward to working with you to 
focus on those objectives and a number of others, but I still 
think we are hearing a few things that I would like to 
understand a little bit better.
    Mayor Bollwage, could you talk a little bit about some of 
your experiences in dealing with brownfield sites prior to the 
2001 Act?
    Mr. Bollwage. Thank you, Mr. Chairman.
    Before 2001, it was really almost impossible to develop a 
brownfield site. There was very little direction or very little 
help from any other government.
    So in developing the EPA Brownfields Program in the 1990s 
and when the law was passed in 2002, I testified here probably 
between 1994 and 2001 at least four or five times. In order to 
get one done, the developer had to take a lot of risk, and I 
think Jonathan could probably speak to some of that risk, but 
it was mostly based on the risk of the developer.
    And those deals were really rare for a lot of communities. 
Developers would usually just look to the pristine or the green 
areas, and as a result, we had all of these abandoned and 
underutilized property.
    The Jersey Gardens, which started in 1997, was actually 
started based on an EPA assessment grant where we assessed the 
property and we worked with the developer, OENJ Cherokee at the 
time, in order to remediate it and vent the methane gas, which 
was a former landfill that then created the Jersey Gardens 
project.
    But the developer took a risk, and the quick story is they 
could not get heavy equipment in there. So when the developers 
came to see me in 1993, they said, ``Mayor, we can get heavy 
equipment in there and remediate this 200-acre landfill if you 
will build a road.''
    Now, the road cost the city taxpayers $10 million to build 
to get the heavy equipment in there. So I could see my 
reelection campaign where the opposition would say mayor builds 
$10 million road to dump and nothing gets done.
    So there was a lot of risk involved, both a trust factor in 
the developer and the city to build that road and then 
remediate the landfill in order to create what is now a 2-
million-square-foot mall with 4 hotels and movie theater and 
4,000 permanent jobs.
    Thank you, Mr. Chairman.
    Mr. Graves of Louisiana. Thank you, Mayor.
    I am going to start a new trend. Ms. LeFevre, look. The 
French influence in south Louisiana, the people at home are 
going to be looking at me like, ``What is that guy saying?'' if 
I pronounce it the other way. Sorry.
    I have two questions for you. Number one, just very 
quickly, roughly what percentage of properties that you deal 
with that are in rural versus urban areas, brownfields 
specifically?
    Ms. LeFevre. I would say probably 25 percent urban and 75 
percent rural.
    Mr. Graves of Louisiana. Wow, wow.
    Ms. LeFevre. Yes.
    Mr. Graves of Louisiana. And one other question. It seems 
like in reading some of your testimony some of the specific 
approaches that you have taken in Kentucky to remediate 
brownfields, to return those properties to commerce seem to be 
unique and not necessarily Federal centric approaches.
    Do you care to comment about some specific approaches that 
you have taken that you think with perhaps more State-based 
leadership would have been successful?
    Ms. LeFevre. Yes. Like I said, you know, being a mostly 
rural State, we know that, you know, the same person who is 
your mayor might be your wastewater operator, might be your 
brownfield redeveloper. So we built a very service friendly 
program with our State.
    You know, we spent a lot of time holding hands, learning 
what our folks need, whether that be visioning workshops and, 
you know, educational workshops and things like that. Those are 
the things you do not initially see in our reports to EPA, but 
we do a lot of that hand-holding work and that support work.
    We actually sort of work as a multipurpose grant from the 
first place. So them saying multipurpose grants, it is a great 
idea for cities, too, because I mean, that gives you that 
flexibility, you know.
    And we have developed over time from nonprofits to for 
profit and from assessment to cleanup, different things for 
different people.
    I just want to emphasize when you talk about liability, one 
of our most successful parts of our program now is our risk 
management program and clarifying that risk. We basically have 
letters, a program that mirrors Federal bona fide prospective 
purchaser, and you get a letter saying that you are not liable 
for that contamination, and that has really spurred brownfield 
redevelopment and movement in those areas.
    So over time, we have just sort of paid attention to what 
our folks need, and States need to do that.
    Mr. Graves of Louisiana. Thank you.
    Next is the gentlewoman from Illinois, Mrs. Bustos.
    Mrs. Bustos. Thank you, Mr. Chairman.
    And thanks to all of our panelists. I appreciate you guys 
being here.
    My congressional district is in the northwestern part of 
the State of Illinois, and like everybody that I have heard 
since I have been here anyway, they have all spoken about the 
importance of the Brownfields Program.
    We are the world headquarters for John Deere in the town 
where I live called Moline, and literally had it not been for 
the Brownfields Program, what is now a beautiful Mississippi 
riverfront civic center, which had been an old, closed down 
factory, never would have happened.
    I live right along the Mississippi River. So when I walk 
down along our bike path and head to our downtown area, I mean, 
it is just virtually all a result of what has happened with the 
Brownfields Program.
    So I think we have all seen the value of that. What I would 
like to start out with is a question for Commissioner Dailey. 
You mentioned the role of brownfields in creating jobs. Part of 
the Brownfields Program is a job training grant program.
    In your experience, are environmental technicians in high 
demand in areas with brownfield projects? If you could address 
that please.
    Mr. Dailey. One more time. I am sorry. Could you repeat the 
question one more time?
    Mrs. Bustos. Sure, sure. Part of the Brownfields Program is 
a job training grant program. In your experience are the 
environmental technicians in high demand in areas with 
brownfields projects?
    Mr. Dailey. I would answer yes, absolutely, and we have got 
some pretty interesting examples, not just from private 
industry, but as I referenced in my written testimony, King 
County, in Washington State, had a diversion training program 
for those that were coming out of incarceration. The county 
trained them to work at these sites.
    So we are getting creative with job creation specifically 
not only working with the private industry, but also using some 
of the resources that we have as well.
    Mrs. Bustos. And, Mr. Philips, do you have anything to add 
to that since you are more in the private end of things?
    Mr. Philips. I would agree that environmental technicians 
are in high demand and there are large companies out there that 
we have hired a lot of their services to provide technical and 
remediation support for the cleanups.
    You know, you can analogize it to, you know, when you spot 
some mildew in your house from a ventilation fan maybe not 
keeping up with your shower exhaust and your steam. You can 
hire somebody who can clean it up pretty quickly with some 
bleach or you can hire a certified company to cordon off the 
place and perform a fumigation, you know, all kinds of 
remediation. The differences in cost are, you know, orders of 
magnitude.
    And I see there is sort of an analogy here with brownfield 
cleanup, too, and that may be getting us a little bit off 
course for what you guys were trying to look at right now for 
this hearing, but I think that relates to the technician 
question. Where do we need to focus? Where is the expertise 
really needed, and how can we do that more inexpensively?
    Mrs. Bustos. All right. Thank you.
    Mayor Robertson, in your experience how has the Brownfields 
Program interfaced with other community redevelopment programs, 
such as the Rails to Trails or transit programs in your city?
    We have seen some of that in, again, the community where I 
live.
    And could the Federal Government do more to encourage the 
selection of projects that incorporate multiple redevelopment 
design elements?
    Ms. Robertson. Yes, absolutely, and thank you for pointing 
that out because in addition to just taking the land and 
creating economic opportunities, there is an opportunity to 
take some of this land and create open space, create active 
transportation opportunities. People can do walking and biking, 
and so that is what the Rails to Trails Program has done, and I 
am hoping that we can continue it.
    I would like to just add one other item on the workforce 
thing, which is just to say that one thing that I think we are 
missing here on the workforce development and training that is 
available for EPA is an opportunity for those skill sets to 
bridge into other environmental areas.
    And so I just wanted to point that out because we have used 
the training program in the Superfund site, and we have been 
able to employ, but the training program that the Brownfields 
Program has, they have had a much higher success rate in terms 
of placement, and those skills are transferrable into other 
areas, such as water treatment, wastewater treatment.
    And so we have lost sight of an opportunity where people 
can, regardless of where they are coming from, begin to deal 
with getting skills that can be transferrable in an area we are 
going to continue to be in, and that is the environment.
    So I just wanted to say that. I am sorry, but speaking to 
the Rails to Trails and all of our open spaces, even within our 
commercial areas we are finding better ways to incorporate the 
open space, the Rails to Trails, but areas where people can 
find solace. That is the best way to put it.
    Mrs. Bustos. Thank you, Mayor Robertson.
    And my time has expired. I yield back.
    Mr. Graves of Louisiana. Thank you.
    Next we are going to go to my friend from Florida, the 
cowgirl from Florida, Ms. Wilson.
    Ms. Wilson. Thank you so much, Chairman Graves and Ranking 
Member Napolitano, for holding today's hearing.
    The Brownfields Program is a proven catalyst for 
redevelopment and revitalization that is truly, truly needed. 
In fact, when I served as the principal of Skyway Elementary 
School, I fought to prevent the creation which could ultimately 
become a brownfield across the street from the school where a 
composting plant had been built. The facility was polluting the 
neighborhood and eroding the children's ability to focus and 
learn.
    My students and I mobilized the community and lobbied 
school board and government officials until the $27 million 
plant was shut down just 2 years after it had opened its doors. 
It was quite a victory.
    But there are remarkable brownfield success stories in the 
heart of my congressional district. Thanks, in part, to the 
Brownfields Program, a former railyard that was contaminated 
with lead, arsenic, and petroleum was transformed into Midtown 
Miami, a $1.2 billion mixed-use development that supports 
nearly 2,000 jobs.
    This project garnered national praise, including the 
prestigious 2009 EPA Phoenix Award.
    While I am very proud of the Midtown Miami success story, I 
remain extremely concerned about the brownfield sites in my 
district and across the Nation that have yet to be remediated. 
Due to the current fiscal limitations and recent proposals by 
the current administration to eliminate the program, I am very 
worried about the future of the program.
    With every Member of Congress having at least one 
brownfield site in their district and the broad bipartisan 
support, I am looking forward to working with my colleagues on 
this committee to reauthorize and strengthen this critical 
program.
    And thanks to the panel for coming today. I appreciate your 
testimony and I have learned a lot from just listening to you 
and your responses.
    I have a question for all of you. We have heard multiple 
times today that for every $1 spent through the Brownfields 
Program $17.50 is generated in economic return. Can you 
describe for us how this economic return is generated? What 
does this look like on the ground in the community that has 
received the brownfields grant?
    First come, first serve.
    Mr. Bollwage. Congresswoman, thank you for the question.
    I can only tell you that when we built the Jersey Gardens 
Mall and I went out there one day and saw some of the young 
people that were working there or a senior citizen and they 
would come up and they would say, ``Mayor, I want to thank you 
because this job opportunity gave me the ability to help my 
granddaughter go to college,'' or if it was a high school 
student, it gave that high school student the ability to save 
money in order to get enough to go into college.
    So the glee on someone's face when they have a job because 
of the work of the city government and a developer is second to 
none, and that is how I can tell you that you feel the effect 
of the Brownfields Program when somebody says, ``Thank you.''
    Ms. Wilson. Honorable Dailey?
    Mr. Dailey. Congresswoman, it is great to see you, and I 
have enjoyed working with you when you were at the State level 
as well. I know you are very familiar with Tallahassee from 
your great service in the State of Florida, and next time you 
are in town, I would love to take you out on a stroll down 
Gaines Street.
    Ms. Wilson. OK.
    Mr. Dailey. When I testified earlier about it, the whole 
redevelopment, which I know you are very familiar with, the old 
industrial side of Tallahassee which now has 3,000 new 
residents, over $130 million of economic vitality with hotels 
and pubs and restaurants and our local incubator program. I 
think you will be absolutely amazed, and I think it will bring 
it home because you know and are familiar with this area that 
this is a great project to stand up and say, ``Job well done. 
We worked together in partnership.''
    Ms. Wilson. Honorable Zone.
    Mr. Zone. Thank you, Madam Congresswoman.
    In my district, there is an old abandoned battery factory. 
It is called the Energizer Factory. It was owned by the 
Energizer Company. We were able to use some assessment dollars 
to do an analysis of that land.
    Today on this 14-acre site, we are in the midst of a $150 
million housing redevelopment project. So that initial small, 
little investment of assessment dollars has leveraged the 
private sector investing nearly $150 million in repurposing 
land, along the rail spur, right along Lake Erie, next to our 
fresh drinking water source.
    Ms. Robertson. Yes, Member, if I could just chime in and 
add as well that on one of our remedial grants that we used to 
clean up, it was $136,000 that was used to clean up a site. 
That site now is a site that is going to be home to a fire 
station, a $9 million fire station, also with housing and 
commercial.
    We are anticipating there will be about $15 to $20 million 
in a retail center and economic benefit and over 1,500 jobs.
    And then back to Member Bustos' point about the Rails to 
Trails, this is another area where we are not necessarily 
looking at the economic benefit, but we are looking at the 
trail and the cleanup there has caused us to have a connection 
with six communities along a corridor that has brought us all 
the way from the Los Angeles County line well into San 
Bernardino County line.
    So there are also economic benefits, and then there are 
quality of life benefits.
    Ms. Wilson. Thank you.
    Mr. Graves of Louisiana. Thank you. I appreciate the 
gentlewoman from Florida.
    Next we are going to go to the vice chair of this 
subcommittee. The gentleman from Florida, Mr. Mast.
    Mr. Mast. Thank you, Chairman.
    You know, I actually just recently used Florida's 
Department of Environmental Protection for Brownfields 
GeoViewer and to explore some of the brownfield sites in my 
congressional district. There were not very many, only a 
handful, but I am very thankful that that kind of technology 
exists. I think everybody up here should have the opportunity 
to view that and see that, and hopefully I think we all want to 
see the number of these actually drop down to zero.
    Now, from what I have heard, this program is a pretty fine 
example of the way Federal Government programs ought to work. I 
think they should probably be mirrored. You know, the Federal 
Government should not necessarily be involved in doing 
everything at the State and local level that they can handle on 
their own down there, but you know, provide support where need 
be, you know, and even in circumstances where the Federal 
Government may get involved should probably be very careful not 
to sideline State and local partners, you know, really allow 
the State and the locality to take full ownership of the 
problems that are faced that were developed in those areas, and 
I think unfortunately that is where Washington gets into 
trouble, is when Washington takes full ownership of these 
programs.
    So in that, Mr. Dailey, I would like to ask you a question 
if you do not mind. You know, when it comes to what they did in 
Leon County with the Cascades Park, I think it is interesting 
to turn the brownfields into public parks. I think that is 
certainly one of the decent ideas that is out there and also 
have it function as a stormwater management area. That is a 
good marrying of what you can do in there.
    My community is pretty conscientious of pollutants entering 
into our waterway. We have water from Lake Okeechobee that 
comes into the Indian River Lagoon in my area, and so we are 
pretty in tune with that.
    So I am interested to know from you what kind of 
monitoring, what kind of assessment has been done after the 
cleanup to essentially ensure that there was not anything 
leaching out and things were not washing downstream, what goes 
on after, and then maybe even follow up beyond that and state 
has the EPA been of good assistance in providing technical 
support after everything has been said and done, or are you 
getting that support downstream that you need?
    Mr. Dailey. Congressman, first of all, thank you for the 
question and the opportunity to respond.
    I can tell you when it comes to Cascades Park, and you 
being a Floridian understand the importance of Cascades Park to 
our history where St. Augustine and Pensacola met halfway to 
form the government of the State of Florida, it has always been 
very important to us.
    But obviously, over the years we did not necessarily take 
enough care of it on the local level and had to move forward 
with the redevelopment of it.
    I can tell you that I will need to follow up with the 
specific details on the environmental remediation and continue 
monitoring. However, I can tell you that it is a national award 
winning park and stormwater facility, not only based on the 
design in the flow of the work, but also based on our 
environmental record as well for maintaining that facility and 
being able to move forward.
    But you are absolutely correct that first and foremost it 
is a nationally award winning stormwater facility. When the 
hurricane came through Tallahassee back in September, knock on 
wood, it worked beautifully. It is built to flood and then draw 
down immediately. It just also happens to be a beautiful park.
    I will be more than happy to follow up with your office 
with the intimate details, but, yes, as far as I know, we have 
not had any problems with the EPA in partnership with the 
monitoring moving forward. They have been good partners for us.
    Mr. Mast. That would be outstanding, yes, if you could 
certainly get back to me or this committee and let us know, you 
know, what is being done going forward. If there is further 
support needed or something that needs to be addressed to 
ensure that this continues to be sustainable in that way, I 
hope you will let us know.
    And I yield back, Chairman.
    Mr. Graves of Louisiana. Thank you.
    I am going to go the second round. Mrs. Napolitano, ranking 
member.
    Mrs. Napolitano. Very quickly, I just want to take one last 
swipe at this.
    In the last Congress, this subcommittee held a similar 
hearing for the reauthorization of Brownfields Program. There 
were questions on the potential Superfund liability for local 
governments that acquire brownfields property that were also 
raised.
    In response to the question, for the record, EPA testified 
that section 101(20)(d) of Superfund law provides a specific 
statutory exemption for properties involuntarily acquired by 
local governments through bankruptcy, tax delinquency, 
abandonment or other circumstances in which the government 
involuntarily acquires title by virtue of its function as a 
sovereign.
    I ask unanimous consent that the four different documents 
on EPA, CERCLA liability and local government acquisition and 
other activities, be made part of the record.
    Mr. Graves of Louisiana. Without objection.

    [Three of the four documents can be found on pages 118-141. The 74-
page ``FY17 Guidelines for Brownfields Assessment Grants'' published by 
the U.S. Environmental Protection Agency can be found online at https:/
/www.epa.gov/sites/production/files/2016-10/documents/epa-olem-oblr-16-
08.pdf, as noted in the table of contents.]

    Mrs. Napolitano. There you go.
    For properties that are acquired by local government 
voluntarily, the Superfund law treats these parties the same as 
any other bona fide prospective purchaser and requires the same 
level of due care with respect to hazardous substances at the 
property.
    Since the statute seems pretty clear on this and provides a 
pathway for local governments to redevelop properties acquired 
both voluntarily and involuntarily, how would you have the 
proposed changes for municipal liability differ?
    Mr. Bollwage. Congresswoman, on those exemptions there is 
eminent domain and tax liens. The exemptions are not covered. 
So if we are going to change it, we would want to make sure 
that municipalities and/or counties that go through an eminent 
domain process or acquire the property through tax liens, that 
the exemption is in place.
    Mrs. Napolitano. Anybody else?
    Mr. Zone. I would just add that, you know, a lot of the 
properties that my colleagues around this country have acquired 
through involuntary actions have become voluntary. Working with 
the State EPA and the Federal EPA saying this has become a 
hazard on our community and we need to step in to remediate it, 
working every step of the way, having that indemnification and 
working with the Environmental Protection Agency to support 
that local government would be highly important.
    Mrs. Napolitano. That is it.
    Well, then if it is voluntary, would there be a different 
way of looking at it?
    Mr. Zone. Well, I would just say, Congresswoman Napolitano, 
even properties that we acquire through tax delinquencies, one 
of the examples that has been often cited in the law and often 
presumed to be protected may not necessarily be exempt if local 
governments took it affirmatively or voluntarily through that 
tax delinquency process. That is always a risk to local 
government, and one of the reasons or the impediment to 
cleaning up that property as well.
    Mrs. Napolitano. All right. Well, the EPA guidance includes 
a third party lender liability and the low-risk petroleum 
sites. So that would be part of the record to show that this is 
covered.
    Thank you, Mr. Chairman.
    Mr. Graves of Louisiana. Thank you.
    I just wanted two issues to try and finish up here. Number 
one, Councilmember Zone and a few others have talked about 
helping to address liability issues for local and State 
governments and whether it be through voluntary or involuntary 
acquisition.
    I just want to get your thoughts, Councilmember Zone, on, I 
guess, relegating that liability protection to public entities 
or should that also carry over to private entities that choose 
to come participate and clean up, but perhaps had nothing to do 
with the actual contamination. These are folks who, again, have 
chosen to come in and help clean up blighted properties or try 
and recondition these properties back to economy development.
    Mr. Zone. Often remediating a brownfield there is usually a 
private-sector developer that is waiting to partner with that 
local government and come in and do that.
    It is risky. We do not want to. When I say ``we'' 
collectively, on behalf of cities, we were not necessarily the 
original polluters of that property, and letting that sit 
fallow, as the mayor has said several times here, presents a 
challenge.
    We need to create the conditions to allow the private 
sector to come in. I am certainly open to having the expansion 
to private-sector developers, working closely with our State 
EPAs to make sure that all the rules are regulations are 
complied with.
    Mr. Graves of Louisiana. Thank you.
    Other folks care to comment on that?
    Mr. Bollwage. He said it best.
    Mr. Graves of Louisiana. Thank you, Mr. Mayor.
    Next, Mr. Philips, I am very curious. Ranking Member 
Napolitano and myself, we have talked about concerns expressed 
with decreased public resources available for investment into 
brownfield properties, and we talk about some of the objectives 
that I think we share.
    You talked about a model whereby some properties are 
actually ripe for private investment. Could you just talk 
perhaps about some of the characteristics, number one?
    Number two, just based upon your personal experiences, what 
percentage of properties perhaps do you think are actually ripe 
for private investment?
    And I understand in your testimony you cite the downturn in 
the economy and economic activity, real estate activity, back 
in the 2008-2009 timeframe, but I am just curious if you could 
talk a little bit on that and basically just the role you see 
the public sector playing versus the private sector in some of 
this redevelopment.
    Mr. Philips. Sure. I think the answer to the question as to 
how many sites are ripe for redevelopment without much public 
involvement, at least without public resources, is one that 
fluctuates greatly depending upon the local, and even national, 
real estate markets.
    And, I think one of the things we talk about is public 
resources. You know, for us, one of the biggest, most important 
elements of a transaction, particularly the larger 
transactions, is not necessarily the cleanup assistance 
specifically, but is more associated with maybe a tax increment 
financing associated with the future activities that are going 
to happen on that site. And, if people can buy into what is 
going to happen there and the tax revenues that are going to be 
generated from that activity, then the markets can say, ``We 
are going to float a bond,'' and then the bond can help front 
end some of that more costly remediation associated with that 
site.
    A similar example might be the entitlements that I had 
mentioned earlier, particularly in urban areas. You can take a 
city like Portland, Oregon, with an urban growth boundary. I 
mean, there are very constricted views as to what can be done 
on those sites, and maybe brownfields should receive special 
considerations, essentially, in exchange for a certain amount 
of cleanup and/or for a certain amount of extra entitlements. 
That is something that we look at quite a bit.
    Another piece is taxation. Institutional investors, at 
least a big pool of them, are not-for-profit. Essentially, they 
are structured such that they are only subject to unrelated 
business income taxation.
    And there is a piece of legislation that I mentioned that 
also exempts for qualified brownfield redevelopments the gain 
on those developments from incurring unrelated business income 
tax. Something, perhaps, could be offered for the taxable 
entity, as well. For the unrelated business income tax, that 
was sort of the low-hanging fruit, and what that is what we 
targeted then.
    Mr. Graves of Louisiana. Thank you, thank you.
    If there are no further questions, I would like to thank 
our witnesses for being here today. I appreciate all of your 
testimony. This has been very informative and helpful, and I 
just want to reiterate that there may be additional questions 
submitted to you for response in writing for the record for the 
hearing.
    And if no one has anything else to add, then the hearing is 
adjourned. Thank you.
    [Whereupon, at 12:04 p.m., the subcommittee was adjourned.]
    
    
    
    [GRAPHIC(S) NOT AVAIALBLE IN TIFFF FORMAT]

    
  
  
  
  
  
  
                        [all]
</pre></body></html>
